<html>
<title> - H.R. 1518, H.R. 1776, AND H.R. 2114</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 1518, H.R. 1776, AND H.R. 2114
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 17, 2001

                               __________

                           Serial No. 107-49
                               __________

           Printed for the use of the Committee on Resources






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov






                        U.S. GOVERNMENT PRINTING OFFICE
73-923                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 17, 2001....................................     1

Statement of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................    32
        Prepared statement on H.R. 2114..........................    33
    Christensen, Hon. Donna, a Delagate to Congress from the 
      Virgin Islands.............................................     2
    Duncan, Hon. John, a Representative in Congress from the 
      State of Tennessee.........................................    34
    Green, Hon. Gene, a Representative in Congress from the State 
      of Texas...................................................     7
        Prepared statement on H.R. 1776..........................     8
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
    Simmons, Hon. Rob, a Representative in Congress from the 
      State of Connecticut.......................................     3
        Prepared statement on H.R. 1518..........................     4
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................    14
        Prepared statement on H.R. 2114..........................    15

Statement of Witnesses:
    Cook, Adena, Public Lands Director, BlueRibbon Coalition, 
      Idaho Falls, Idaho.........................................    39
        Prepared statement on H.R. 2114..........................    40
    Fox, Stephen, Architect, Houston, Texas......................    85
        Prepared statement on H.R. 1776..........................    86
    Fulton, Tom, Deputy Assistant Secretary for Land and Minerals 
      Management, Department of the Interior, Washington, DC.....    19
        Prepared statement on H.R. 2114..........................    21
    Hauber, Hon. Dolores, Mayor, Town of Groton, Groton, 
      Connecticut................................................    66
        Prepared statement on H.R. 1518..........................    67
    Noel, Michael Earl, Chairman, Kane County Resource 
      Development Committee, Kane County, Utah...................    48
        Prepared statement on H.R. 2114..........................    50
    Olson, Anne, President, Buffalo Bayou Partnership, Houston, 
      Texas......................................................    70
        Prepared statement on H.R. 1776..........................    71
    Robbins, John, Assistant Director, Cultural Resources 
      Stewardship and Partnerships, National Park Service, 
      Department of the Interior, Washington, DC.................    23
        Prepared statement on H.R. 1518..........................    25
        Prepared statement on H.R. 1776..........................    25
    Roosevelt, Theodore IV, New York, New York...................    56
        Prepared statement on H.R. 2114..........................    58
    Streeter, James L., Co-Chairman, Avery Point Lighthouse 
      Society, Groton, Connecticut...............................    67
        Prepared statement on H.R. 1518..........................    69












 H.R. 1518, TO REQUIRE THE SECRETARY OF THE INTERIOR TO INCLUDE ON THE 
  NATIONAL REGISTER OF HISTORIC PLACES THE AVERY POINT LIGHTHOUSE IN 
 GROTON, CONNECTICUT, AND PROVIDE $200,000 FOR THE RESTORATION OF THAT 
 LIGHTHOUSE; H.R. 1776, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO 
STUDY THE SUITABILITY AND FEASIBILITY OF ESTABLISHING THE BUFFALO BAYOU 
NATIONAL HERITAGE AREA IN WEST HOUSTON, TEXAS; AND H.R. 2114, TO AMEND 
  THE ANTIQUITIES ACT REGARDING THE ESTABLISHMENT BY THE PRESIDENT OF 
 CERTAIN NATIONAL MONUMENTS AND TO PROVIDE FOR PUBLIC PARTICIPATION IN 
                THE PROCLAMATION OF NATIONAL MONUMENTS.

                              ----------                              


                         Tuesday, July 17, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. Committee will come to order. This morning the 
Subcommittee on National Parks, Recreation and Public Lands 
will hear testimony on three bills, H.R. 1518, H.R. 1776 and 
H.R. 2114.
    The first bill, H.R. 1518, was introduced by Congressman 
Rob Simmons of Connecticut. This legislation would require the 
Secretary of the Interior to include on the National Register 
of Historic Places the Avery Point Lighthouse in Groton, 
Connecticut, and provide $200,000 for the restoration of the 
lighthouse.
    H.R. 1776 was introduced by Congressman Gene Green of 
Texas. This bill would authorize the Secretary of Interior to 
study the suitability and feasibility of establishing the 
Buffalo Bayou National Heritage Area in west Houston, Texas.
    The last bill, H.R. 2114, would amend the Antiquities Act 
of 1906 by ensuring that the act is used only for those 
purposes originally attended. For example, H.R. 2114 would 
strengthen the act by ensuring that State and local officials 
are consulted and provided a role in the designation process. 
In addition, H.R. 2114 would require congressional approval 
within 2 years of any new National Monument that is more than 
50,000 acres, the equivalent of 78 square miles, or enlarges an 
existing National Monument by more than 50,000 acres.
    At this time I would like to ask unanimous consent that 
Congressman Simmons and Congressman Green be permitted to sit 
on the dais following their statements. Without objection, so 
ordered. Just a reminder to our witnesses, due to the very busy 
Committee schedule this afternoon, I would like to remind the 
witnesses to keep their testimony to 5 minutes if possible, and 
we will put you on the clock and you will see the little lights 
going on and off.
    I would like to thank all of our witnesses for being here 
today to testify on these bills, and now I would turn to Mrs. 
Christensen for any comments she might make.

  STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE TO 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I too want to 
welcome our colleagues back again to our Subcommittee, and as 
you said this morning, we are going to receive testimony on 
three bills.
    The first, which is H.R. 1518, would require the Secretary 
of the Interior to include the Avery Point Lighthouse in 
Groton, Connecticut on the National Register of Historic 
Places. In addition, the bill would earmark $200,000 from 
amounts appropriated to carry out the National Historic 
Preservation Act, to be provided to the University of 
Connecticut Fund for Restoration of the Lighthouse.
    Although the proposal I am sure has quite a bit of merit, 
and I was looking over the article that was shared with us 
before we got started, the approach is cause for concern. 
Normally, historic properties undergo a rigorous process, 
including local nomination and State approval, before being 
added to the Register. Similarly, Federal historic preservation 
funding is normally awarded to the States in the form of block 
grants, with the allocation of those funds within a State left 
up to the State historic preservation officer.
    To completely remove all State and local input from both 
the listing and funding processes as H.R. 1518 would propose to 
do, it is troubling, particularly since it is our understanding 
there has not yet to date been an attempt to have the Avery 
Point Lighthouse listed on the National Register through the 
normal process, but we look forward to hearing from our 
witnesses today regarding any circumstances that might make 
such an unprecedented step necessary in this case.
    The next bill, H.R. 1776, would authorize the study of an 
area in Houston, Texas known as the Buffalo Bayou to determine 
whether the area deserves designation as a National Heritage 
Area. We understand that the administration may have technical 
suggestions for improvements of the bill and we look forward to 
learning more about those suggestions and about this 
interesting area.
    Our final bill, H.R. 2114, by Mr. Simpson deals with a 
subject that is very familiar to the Subcommittee. The bill as 
introduced combines the legislation from controversial language 
of the 105th Congress, H.R. 1127, with language in the 106th 
Congress, H.R. 1487, that was amended and approved by the 
Resources Committee in the House on a bipartisan basis. Mr. 
Chairman, I am concerned that combining the Antiquities Act 
language from the 105th and the 106th Congress is a step 
backwards that will make it harder rather than easier to 
address the question of National Monument designations by a 
President.
    I strongly support the public participation and comment 
provisions of the bill. These are the bipartisan provisions 
developed by the Committee last Congress. However, combining 
these provisions with the language from the 105th Congress 
limiting the size and duration of monuments designated by the 
President will only serve to reignite a controversy that many 
of us thought was settled by the bipartisan language that was 
developed in the last Congress.
    Mr. Chairman, I look forward to the testimony of our 
witnesses on the Antiquities Act and the other matters before 
the Subcommittee today and appreciate their taking time to 
testify before this Subcommittee.
    Mr. Hefley. Mr. Simpson, comment?
    Mr. Simpson. No.
    Mr. Hefley. Our first panel is composed of the Honorable 
Gene Green, 29th District of Texas, and the Honorable Rob 
Simmons, the Second District of Connecticut. We will start with 
Mr. Simmons.

STATEMENT OF THE HON. ROB SIMMONS, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Simmons. Good morning, Mr. Chairman, good morning, Mrs. 
Christensen, Mr. Simpson. I am going to be testifying this 
morning on the Avery Point Lighthouse Act and the Avery Point 
Lighthouse. So to honor the event I have worn my nice bright 
red lighthouse tie, and I hope you all can see it up there, but 
it is a beacon of brightness in this dark city this wonderful 
Tuesday morning.
    Let me speak briefly about the Avery Point Lighthouse 
Restoration Act of 2001 and let me also introduce to the 
Committee my mayor of Groton, Connecticut, Dee Hauber, who will 
be paneled a little later in the morning, and Jim Streeter, who 
has been involved in the local project to restore this 
lighthouse.
    The Avery Point Lighthouse is located on the grounds of the 
University of Connecticut in Groton, Connecticut, in my 
district on Long Island Sound, and for those of you who have 
seen the postcard it is a very dramatic location. This 
lighthouse is special for several reasons. First of all, it was 
constructed as a memorial to all lighthouse keepers, to all 
lighthouse keepers across this great Nation. It was constructed 
as a memorial to them. It was also the last lighthouse that was 
constructed in the State of Connecticut, being completed in 
1943 during World War II as part of a project to establish a 
Coast Guard facility on that site and to provide appropriate 
lighting.
    And we are accompanied here today by Commander Glenn 
Zilmasia of the U.S. Coast Guard. If you could stand up, Glen. 
If there are any issues relative to the Coast Guard's 
involvement with this lighthouse, I am sure he will be happy to 
answer your questions.
    A couple of years ago the lighthouse was in serious 
conditions, seriously deteriorated for a number of reasons, and 
there was even a concern that it might be demolished, but the 
Avery Point Lighthouse Society was established in February of 
last year. One of the cofounders was Jim Streeter, who is here 
with us today, and funds have been raised to begin the effort 
to restore, maintain and relight the lighthouse. This citizens 
initiative has already raised over $35,000, and I believe that 
we have with us here today a citizens petition with over 10,000 
signatures to indicate the very broad-based local public 
support for this project.
    Secondly, some of my former colleagues in the Connecticut 
General Assembly who represent the district have introduced 
legislation to the Connecticut General Assembly to secure 
$150,000 in bonding dollars for this project, and so we have 
substantial State level support. The University of Connecticut, 
which holds the deed to the property, has entered into a 
memorandum of understanding with the Avery Point Lighthouse 
Society to cooperate and work with them on the restoration and 
maintenance of this facility.
    What we are asking for here today are two things: One, that 
the lighthouse be placed on the National Register of Historic 
Places and, to respond to the comments of the ranking member, 
yes, we will work closely with organizations in Connecticut. We 
are already in touch with them so that we can do this as a two-
track process. We are not trying to bypass anybody in this. We 
have just been at it for a little over a year, and so we are 
working on a two-track process for that. And secondly, to 
secure just a few Federal dollars to assist us in this 
initiative.
    We feel that this lighthouse is special. It is special in 
its construction. It is special in its dedication to lighthouse 
keepers across the country, and it is special to us because it 
is the last lighthouse built in this State. We also think it is 
special and deserves some Federal support because we have local 
citizen support. We have municipal support. We have support of 
the State of Connecticut and University of Connecticut, and so 
finally we want to complete the process with just a little bit 
of Federal support.
    And I thank the Chair and the members, and I would be happy 
to respond to any questions.
    [The prepared statement of Mr. Simmons follows:]

 Statement of The Honorable Rob Simmons, a Representative in Congress 
               from the State of Connecticut on H.R. 1518

    Mr. Chairman and members of the Committee,
    I am pleased to be here this afternoon to testify in support of 
H.R. 1518, the ``Avery Point Lighthouse Restoration Act of 2001,'' 
legislation that represents a vital step toward restoring one of the 
nation's last remaining historical lighthouses. And I am grateful that 
you have allowed my two of my constituents, Mayor Dee Hauber and Jim 
Streeter to join me in participating in this congressional hearing.
    The Avery Point Lighthouse is located on the University of 
Connecticut's Avery Point Campus in my district of Groton, Connecticut. 
The Avery Point Lighthouse is located on the University of 
Connecticut's Avery Point Campus in Groton, Connecticut. In 1942, the 
United States Coast Guard bought the Avery Point property for a 
training facility. Subsequently, in 1943, the Avery Point Lighthouse 
was built as a memorial to lighthouse keepers. It was the last 
lighthouse built in the state of Connecticut and I am proud to say that 
my father worked as an architect for the very firm that built the 
lighthouse.
    Sadly, the years have not been kind to the Avery Point Lighthouse. 
Exposure to weather, coupled with lack of maintenance, has resulted in 
significant damage and deterioration to this treasure. The light was 
extinguished in 1967.
    But as we have seen time and time again in this great nation, 
citizens have banded together to save and restore the Avery Point 
Lighthouse. The Avery Point Lighthouse Society was established in 
February of 2000 to lead the effort to restore, relight and maintain 
the lighthouse. Led by co-founder Jim Streeter, the Avery Point 
Lighthouse Society has raised nearly $35,000 in private donations, 
including the cost of an engineering study being done by the 
engineering firm of Gibble, Norden and Champion of Old Saybrook, 
Connecticut. We also anticipate receiving state funding for this 
project.
    However, this strong local effort is not enough. Although the 
Lighthouse Society has made great strides toward providing the 
necessary funds for restoration, additional monies are needed to see 
the project through. That's why I introduced the Avery Point Lighthouse 
Act, which would authorize the Secretary of the Interior to use 
$200,000 for the restoration of the lighthouse. My bill also would 
direct the Secretary to place the Avery Point Lighthouse on the 
National Register of Historic Places, making it eligible for 
preservation funds and affording it certain protections under that 
program.
    I believe the Avery Point Lighthouse deserves special congressional 
recognition for two reasons. First, it is the last lighthouse erected 
in the State of Connecticut. This structure remains an important 
historical part of our state and the nation and should not be lost. 
Second, it is a strong symbolic representation of the U.S. Coast 
Guard's lighthouse keeping duties. As you may know, the U.S. Coast 
Guard Academy is located in the Groton-New London area, as is the U.S. 
Coast Guard Museum. It is in the nation's best interest to preserve 
this important symbol of one of the Coast Guard's essential tasks--
protecting our country's coastlines.
    Mr. Chairman, this public/private partnership effort will ensure 
that the Avery Point Lighthouse continues to serve as a memorial to 
lighthouse keepers and an educational tool for many future generations.
    I thank you, Mr. Chairman, for your attention. I am happy to answer 
any questions that you have and look forward to working with you and 
your Committee on this legislation as we move forward.
                                 ______
                                 
    [An article attached to Mr. Simmons' statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3923.001
    
    Mr. Hefley. Thank you very much.
    Mr. Green.

STATEMENT OF THE HON. GENE GREEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, and like my colleague, 
I thank the Chairman and the Committee for holding the hearing 
today on H.R. 1776, the Buffalo Bayou Heritage Area Study Act.
    The State of Texas is not typical of most large western and 
southwestern States in that we do not have large tracts of 
public lands owned by the Federal Government. The vast majority 
of our State is privately owned or State owned. This means that 
we do not have the large tracts of either BLM, Forest Service 
or National Park Service property for our residents to visit.
    What we do have though in a number of urban areas is 
pockets of green space that our residents can use for 
recreation and relaxation. One of these green space pockets is 
located in eastside Houston along Buffalo Bayou. It has been 
one of the highest priorities since I arrived in Congress to 
help develop east end Houston as a magnet for not only business 
but also recreation.
    This legislation is the first step on what I would hope to 
lead to Buffalo Bayou's designation as a National Heritage Area 
and I have invited witnesses from Houston who actually go into 
the history of Buffalo Bayou. Having lived and worked along 
Buffalo Bayou all my life, I can tell you but not near as well 
as Anne Olson and Steve Fox, who will both give you much better 
background on it.
    Just a brief description of the significance of the 
waterways use, the original founders of Houston, the Allen 
brothers, came up Buffalo Bayou in the mid-1830's and stopped 
at what today is called Allen's Landing in downtown Houston. 
The City of Houston now is the energy capital of the world and 
a major center for shipping in not only the Gulf of Mexico but 
also it started with facilitating these docks on Buffalo Bayou 
in downtown Houston. Now our ship channel is moved to the east, 
not included in this request for this heritage area, but it is 
the beginning of the Houston area.
    And I am only scratching the surface of the historical and 
cultural nature, and my witnesses again will go into more depth 
and more detail on Buffalo Bayou and how it is a perfect 
candidate for a National Heritage Area designation and why it 
has such strong local support. The redevelopment project has 
significant local support from both our mayor of Houston and 
our county judge of our Harris County, our county executive. In 
addition, the City of Houston recently approved $350,000 
expenditures for the Buffalo Bayou Partnership to begin 
formulating the master plan development for Buffalo Bayou. 
These financial commitments not only by the City of Houston but 
our County of Harris is what I believe is the important 
critical element needed to gain National Heritage designation. 
We have that local support.
    In that light, I want to compliment the organization, the 
Buffalo Bayou Partnership. This local group brings these vast 
resources to Houston and Harris County for the purpose of 
building something to benefit all our local residents. The 
Buffalo Bayou Partnership is a group of dedicated, hardworking 
people and Anne Olson is here to talk about that today. It is a 
great conduit for the development of this National Heritage 
Area.
    Our local organization and broad public support for this 
designation is exactly what the program was designed to 
complement. Our local folks feel that the designation itself 
will be a magnet for both public and private investment, and 
while envisioned when this legislation was first proposed, 
Buffalo Bayou would create a mechanism that would create new 
development opportunities and highlight our historical nature 
in Houston and cultural significance in our area.
    Again, it is part of Buffalo Bayou that is historic, not 
only from 1835 but even up through the Civil War, and again, 
Mr. Chairman and Committee members, I could talk about it, but 
I will leave that up to the experts, and I will be glad to try 
and answer any questions.
    [The prepared statement of Mr. Green follows:]

  Statement of The Honorable Gene Green, A Representative in Congress 
                  from the State of Texas on H.R 1776

    Mr. Chairman, I would like to begin by thanking you and the Ranking 
Member for holding this important legislative hearing on H.R. 1776, the 
Buffalo Bayou Heritage Area Study Act.
    The State of Texas is not typical of many large western or 
southwestern states in that we do not have large tracts of public lands 
owned by the federal government. The vast majority of our state is 
privately owned. This means that we do not have the vast tracts of BLM, 
Forest Service, or National Park Service property for our residents to 
visit. What we do have, especially in our major urban centers, are 
pockets of public green space that our residents can use for recreation 
and relaxation.
    One of these green space pockets is located on the East side of 
Houston, Texas along the Buffalo Bayou. It has been one of my highest 
priorities since I arrived in Congress to help develop this open space 
into a real recreation magnet for folks in East Houston. This 
legislation is the first step in what I hope will lead to Buffalo 
Bayou's designation as a National Heritage Area. I have invited several 
witnesses from Houston who will testify in greater detail the cultural 
and historical significance of the area being studied for the 
designation, but I can tell you that this ten mile stretch of green 
space and waterway has a lot of potential.
    Just to give you a brief historical snapshot of the significance of 
this waterway to Houston. The original founders of Houston, the Allen 
Brothers, came up Buffalo Bayou and stopped at what is today Allen's 
Landing in downtown landing. The City of Houston was established as a 
major center of international shipping in the Gulf of Mexico, and to 
facilitate commerce the city was oriented toward Buffalo Bayou's docks. 
Again, I am only scratching the surface on the cultural and historical 
significance of this waterway. My witnesses will provide you with a 
much more in depth description of what makes Buffalo Bayou a perfect 
candidate for a National Heritage Area designation and why it has such 
strong local support.
    This redevelopment project has significant local support from both 
the Mayor of Houston and the County Judge. In addition, the Houston 
City Council recently approved a $350,000 expenditure for the Buffalo 
Bayou Partnership to begin formulating their master development plan 
for Buffalo Bayou. This financial commitment highlights what I believe 
is the most critical component needed to gain a National Heritage 
Designation--solid local support. In that light, I want to compliment 
the organization that is charged with spearheading this development 
effort, the Buffalo Bayou Partnership. This local group has been able 
to bring the vast resources of the Houston and Harris County 
communities together for the purpose of building something for the 
benefit of all the local residents.
    The Buffalo Bayou Partnership consists of a small group of 
dedicated, hardworking people who I believe will be the perfect conduit 
to help develop our National Heritage Area proposal. Our local 
organization and broad public support for this designation is exactly 
what this program was designed to compliment. Our local folks feel that 
the designation itself will be a magnet for both public and private 
investment. What I envisioned when this legislation was first proposed 
for Buffalo Bayou was to create a mechanism that would create new 
development opportunities and highlight the historical and cultural 
significance of this important area.
    In conclusion Mr. Chairman, I again what to thank you and the 
Ranking Member for including my legislation in today's hearing and I 
would be happy to answer any questions you may have.
    Thank you.
                                 ______
                                 
    [A map of Buffalo Bayou and three letters submitted for the 
record by Mr. Green follow:]
[GRAPHIC] [TIFF OMITTED] T3923.003

[GRAPHIC] [TIFF OMITTED] T3923.014

[GRAPHIC] [TIFF OMITTED] T3923.015

[GRAPHIC] [TIFF OMITTED] T3923.002

    Mr. Hefley. Thank you, Mr. Green.
    Mr. Simpson.

    STATEMENT OF THE HON. MIKE SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Mr. Chairman. First of all, I have 
an opening statement that I would like included in the record, 
and then I am just going to briefly discuss what this bill is 
about and why it is here, and then I want to thank all those 
individuals that came to testify both for and against this 
legislation, H.R. 2114, the National Antiquities Fairness Act.
    I honestly believe that the biggest threat to the 
Antiquities Act today is its abuse or misinterpretation as the 
law is currently applied. In 1906, the antiquities law when it 
was written was the environmental law of the time. It was 
literally the environmental law of the time. It allowed for a 
President to declare a National Monument unilaterally, by 
himself, without congressional or public input, with only three 
or four different requirements, one of them being that it be of 
historic, scientific or geological significance, that the area 
be under some imminent threat, not some potential threat in the 
future but that it be under some actual imminent threat and 
that the smallest amount of land possible be used to protect 
that site.
    In the original debate when this was brought to the floor 
in 1906, Mr. Stephens of Texas was questioning Mr. Lacey of 
Iowa, the sponsor of the legislation. Mr. Stephens said, ``Will 
this take''--and I quote--``Will this take this land off the 
market or can they still be settled on as part of the public 
domain?''
    Mr. Lacey: ``it will take those portions of the reservation 
out of the market. It is meant to cover the cave dwellers and 
cliff dwellers.''
    Mr. Stephens of Texas: ``how much land will be taken off 
the market in the western States by the passage of this bill?''
    Mr. Lacey: ``not very much. The bill provides that it shall 
be the smallest area necessary for the care and maintenance of 
the objects to be preserved.''
    Mr. Stephens of Texas: ``would it be anything like the 
forest reserve bill by which 70 or 80 million acres of land of 
the United States have been tied up?''
    Mr. Lacey: ``certainly not. The object is entirely 
different. It is to preserve these old objects of special 
interests in the Southwest whilst the other reserves, the 
forest and the water courses....''
    Certainly when you look back at the debate, the intent of 
the original Antiquities Act is not the way it is being used 
today, and in fact today there is some 80 million acres that 
are in National Monument status. Since that time we have passed 
and Congress has passed many other environmental laws that were 
not in place at the time, the Wilderness Act, the Wild and 
Scenic Act, the Clean Water Act, Clean Air Act. You can go on 
and on. There is lots of legislation that we have passed that 
were not there in 1906.
    This is the only one that I am aware of which gives an 
individual the power to act without any public or congressional 
input. I would suggest that if we were here proposing 
legislation to take away the requirement that there be public 
input in the National Environmental Policy Act or anything like 
that, that those people opposed to this legislation would be 
rightfully outraged that we wanted to take away the public's 
right to comment or to have input into the designation and use 
of public lands.
    What this bill does is very simple. It says that a 
President can declare a National Monument up to 50,000 acres, 
he has to notify the congressional delegation and the governor 
60 days before that declaration is made so that they can have 
public input, they can hold hearings, they can participate in 
the process. If the designation is over 50,000 acres, the 
President can still make that declaration. It doesn't take away 
his right to do it, but it says Congress has to affirm that 
designation within 2 years or it reverts to its original land 
designation. It does not take away the President's right to do 
anything he can currently do now.
    What this does, I think, is restore some balance into an 
unbalanced law by putting Congress and the public in part of 
the mix. Now, some people say this bill is an anti-
environmental law. I can guarantee you it is not. As I said, it 
just restores, I think, some balance between a unilateral 
declaration by an individual and Congress doing what it is 
constitutionally required, and that is make land use 
designations within the United States and to have some public 
input. As I said, the President can still make the designations 
to protect those lands. Those that are under imminent threat, 
immediate threat, he can still protect those lands.
    Some will say this bill is an anti-American bill. I can 
guarantee you that it is not anti-American. What is anti-
American is the current law because what we have is a system of 
government of a balance of power and checks and balances, and 
under the Antiquities Act as it currently is there is no checks 
and balance. Now some can say Congress can act and undo what 
the President does but the reality is that is not how it works. 
If we are placed in the position of having to do undo what a 
President does, essentially you would have to have a two-thirds 
vote to override a presidential veto if we were going to pass a 
bill to undo a National Monument status bill. And that is not 
the way our Constitution was established, and consequently I 
think this is a necessary bill.
    It is not an attempt to undermine the Antiquities Act. It 
is an attempt, I believe, to strengthen the Antiquities Act, 
and I appreciate the ranking member's comment about the 
controversy that this brings up, but it is a controversy that 
needs to be engaged. I think the 1906 Antiquities Act needs to 
be viewed in the context of the laws that currently exist, not 
the way it was written in 1906 but with all the environmental 
laws and protections that we currently have on the books, and 
simply have Congress and the public get back into the debate of 
how we manage public lands.
    I appreciate the Chairman's time constraints.
    [The prepared statement of Mr. Simpson follows:]

 Statement of The Honorable Mike Simpson, A Representative in Congress 
                        from The State of Idaho

    Thank you for scheduling this important hearing on H.R. 2114, the 
National Monument Fairness Act. Additionally, I want to thank the panel 
members who have made the long journey to Washington, D.C., to testify 
on behalf of H.R. 2114.
    H.R. 2114 eliminates the single greatest threat to the Antiquities 
Act- its abuse by a sitting President. One need only look at former 
President Clinton's declaration of the 1.7 million acre Grand 
Staircase-Escalante National Monument in 1906, and the ensuing 
controversy to see what happens when you bypass the public and state 
and local officials. He undertook this action without the consent or 
input of the Governor or Congressional Delegation of the State of Utah. 
Further, he announced the designation in a grand press conference not 
in Utah, but in Arizona.
    Former President Clinton's action on the Grand Staircase-Escalante 
National Monument designation, and other such designations, represents 
the greatest threat to the Antiquities Act. As any reasonable person 
knows, the abuse of any law erodes public support for the law and 
undermines the credibility of future designations. Former President 
Clinton's abuse of the Antiquities Act now threatens any future use of 
the Act, and thus the Act's worthy goal, as envisioned during the 1906 
debate, of protecting truly threatened federal lands of historical, 
prehistorical or scientific interest.
    As written, the Antiquities Act gives the President the unilateral 
authority to carve national monuments out of existing federal lands 
without any public input. The National Monument Fairness Act of 2001 
amends the Antiquities Act of 1906 to require the President to seek 
input from state and local officials prior to a monument declaration 
and would require congressional approval of any monument designation or 
expansion that is more than 50,000 acres. This legislation is a direct 
response to the concerns of many people, including myself, who believe 
the recent rash of presidential declarations have misused or abused the 
Antiquities Act and been contrary to the original intent of Congress.
    Specifically, H.R. 2114 requires the President to solicit public 
participation and comment, and to consult with the affected Governor(s) 
and congressional delegation(s) at least 60 days prior to any national 
monument designation. Additionally, it states that a proclamation of 
the President, which creates a national monument that is more than 
50,000 acres, or enlarges an existing national monument by more than 
50,000 acres, may not be issued until 30 days after the proposed 
proclamation has been transmitted to the Governor of the state(s), and 
that Congress must approve of such a monument designation within 2 
years.
    The common sense changes to the Antiquities Act that I am proposing 
will serve to reign in the unrestrained use of the Act and restore the 
original intent of Congress. Thereby, strengthening the Act.
    The original intent of Congress was to allow the President to 
protect ``historic landmarks, historic and prehistoric structures, and 
other objects of historic or scientific interest.'' In addition, as 
stated by the Act, reserved lands were to be ``confined to the smallest 
area compatible with the proper care and management of the objects to 
be protected.'' Finally, the objects to be protected must face 
immediate threats or endangerment.
    Unfortunately, the Antiquities Act is not being used as it was 
intended. It is now being used to lock up large tracts of land without 
any public comment, input from state and local elected officials, or 
congressional review. Former President Clinton used the Antiquities Act 
twenty-two times to designate nearly 5.8 million acres of federal land 
as national monuments, without any public input or consultation with 
state and local officials.
    In reading the Congressional Record from the 1906 debate on 
consideration of the Antiquities Act, it is clear that western Members 
were concerned about possible ``land grabs,'' and that the original 
intent of the Act was preserve old objects of historic value.
    One member, Mr. Stephens of Texas, only agreed to consideration of 
the bill after being assured by the bill's proponent, Mr. Lacey of 
Iowa, that its intent was not to tie up large tracks of land. The 
following is taken from the debate transcript between Mr. Stephens and 
Mr. Lacey.

    Mr. LACEY. There has been an effort made to have national parks in 
some of these regions, but this will merely make small reservations 
where the objects are of sufficient interest to preserve them.
    Mr. STEPHENS of Texas. Will that take this land off of market, or 
can they still be settled on as part of the public domain?
    Mr. LACEY. It will take that portion of the reservation out of the 
market. It is meant to cover the cave dwellers and cliff dwellers.
    Mr. STEPHENS of Texas. How much land will be taken off the market 
in the Western States by the passage of this bill?
    Mr. LACEY. Not very much. The bill provides that it shall be the 
smallest area necessary for the care and maintenance of the objects to 
be preserved.
    Mr. STEPHENS of Texas. Would it be anything like the forest-reserve 
bill [precursor to the National Forest System], by which seventy or 
eighty million acres of land in the United States have been tied up?
    Mr. LACEY. Certainly not. The object is entirely different. It is 
to preserve these old objects of special interest in the Southwest, 
whilst the other reserves the forests and the water courses.
    Mr. STEPHENS of Texas. I hope the gentleman will succeed in passing 
that bill [a separate bill], and this bill will not result in locking 
up other lands. I have no objection to its consideration.

    This bill preserves the President's ability to protect those 
special historical areas that are less than 50,000 acres and deserving 
of monument designation, while providing Congress with the power to 
conduct appropriate oversight over declarations involving greater 
expanses of land. Not only is this in line with the original intent of 
Congress, but is also in line with the U.S. Constitution. Article IV, 
Section 3 of the U.S. Constitution states: ``Congress shall have Power 
to'make all needful Rules and Regulations respecting the Territory or 
other Property belonging to the United States.
    When one looks at the actual words of the Act and the original 
debate surrounding the Act, it is evident that the original intent of 
Congress was to protect special areas of limited size. This coupled 
with the constitutional role of Congress respecting federal lands; it 
is incumbent upon Congress to reign in the abuse of the Antiquities 
Act.
    This common sense legislation restores Congress's constitutional 
oversight role regarding land use and management policies resulting 
from national monument status. Moreover, it holds the President 
accountable to Congress and the American people.
    This legislation is not about preventing national monuments, but 
creating a process by which national monument decisions can be arrived 
at openly, with public participation and state and local government 
consultation. From the time of enactment of the Antiquities Act, 
Presidents have used the Act over 120 times, totaling over 70 million 
acres, without any formal public input. However, since 1943, only two 
Presidents have used the Antiquities Act to designate a national 
monument in excess of 50,000 acres--President Carter and President 
Clinton.
    National monument declarations are major decisions with far 
reaching effects that should be made in the open, not in secret. Secret 
decision-making is not conducive to sound decision-making. Decisions, 
even those well intentioned, made without adequate input are often 
rejected because the public does not feel they have been a part of the 
process. I see no harm in allowing the public and state and local 
officials an opportunity to examine proposed monuments and provide 
input on possible local impacts. Bringing the public and Congress to 
the table strengthens, not weakens, the Antiquities Act and ensures all 
parties have a voice in the debate.
    Once again, I want to take this opportunity to thank you for 
holding this hearing. I am hopeful that the information presented here 
will allow us to move forward with this common sense legislation.
    Thank you Mr. Chairman.
                                 ______
                                 
    Mr. Hefley. Thank you very much. Just two or three 
questions here. First of all, Mr. Green, who did you pay and 
how much did you pay to get that number on your bill? I mean, I 
want to hear drums and fifes and see flags waving.
    Mr. Green. Mr. Chairman, I would have preferred 1836 but I 
didn't want to wait a hundred numbers or 75 numbers to get 
there.
    Mr. Hefley. You did very well.
    Mr. Green. It was the luck of the draw.
    Mr. Hefley. This is a National Historic Area we are talking 
about. So I want you and your witnesses to tell us, tell this 
Committee, what is there about Buffalo Bayou? Now, I understand 
that it could be an economic development thing for Houston, I 
understand that it could be a recreational thing for people in 
the Houston area, but what is there about Buffalo Bayou that 
makes these Committee members want to go to Houston to see that 
National Heritage Area, Buffalo Bayou?
    Mr. Green. Well, Mr. Chairman, I will let the experts talk 
about it, but I can tell you the benefit to the Nation. The 
Houston area again is the energy capital of the world. It 
developed along Buffalo Bayou from 1836 to today and even 
increasing. In Houston, typically we are thinking so much about 
the future instead of the past. This would give us an 
opportunity to say, well, let's look at our heritage and what 
caused this to become the fourth largest city in the country, 
to cause the United States Congress in 1917 to provide for the 
deepening and widening of the Houston Ship Channel that is our 
first largest port of foreign tonnage. And it will recognize 
that heritage.
    Literally from along Buffalo Bayou there is the Battle of 
San Jacinto in 1836 that really opened the way for Texas 
independence, an independent country, but the area we are 
talking about was the development of the City of Houston, and 
again that is of national significance because of the energy 
industry but also the fourth largest city in the Nation, and 
being in the State of Texas there is not a lot of Federal lands 
available. In fact, in the Park Service testimony you will see 
the National Park work and contacts in the Houston area are not 
extensive. This would give us a chance to show the culture and 
the history of Houston and how it benefits the Nation.
    Mr. Hefley. Is there anything to see there of an historic 
nature now in Houston or is it all gone because Houston has 
been a fast developing, dynamic city?
    Mr. Green. What we are seeing is by looking back, and again 
Stephen Fox and Anne Olson will say better, but I know in my 
own district that this includes--we have a park area that has 
been there for many years and we are continuing to rediscover 
the roots of Houston along Buffalo Bayou. Harrisburg, for 
example, that is in my district, was the first city along 
Buffalo Bayou. It was incorporated in the City of Houston many 
years ago, but that is the historic nature of it, and that is 
what we are seeing rediscovered in that Houston area, east end 
of Houston now, but the heritage that we have in that area.
    Mr. Hefley. Thank you. Mr. Simmons, I love lighthouses and 
I think we ought--.
    Mr. Simmons. We can share my tie.
    Mr. Hefley. And I love your tie. I am a big fan of 
restoring lighthouses. I hate to see one torn down but why not 
go through the normal process for registry on the National 
Register? Why come to Congress? Ordinarily this isn't the 
process that we use for this.
    Mr. Simmons. Yes, Mr. Chairman. It is a good process. We 
have been in touch with the State Historic Society. We have 
been in touch with the folks in the State of Connecticut who 
would normally assist in this process. Of course our concern is 
timeliness. This is a structure that came very close 2 years 
ago to being demolished, and if you look at the postcard that 
we have, which is very scenic and very beautiful, but if you 
look around the bottom of it you will see some red or orange 
plastic which is marking this off as a dangerous site, a site 
to keep away from. So we have come to the brink, if you will, 
with this. It nearly came down a couple of years ago. Citizen 
response, the response of the community, the response of the 
municipality and the State have been aggressive and active to 
put this on the front burner, and I guess in a way by 
establishing a faster track through legislation, we are 
responding to that concern that we have come very close to 
losing this, but if this is an issue for the Committee. I am 
sure that we would be able to provide additional testimony and 
input from the requisite State authorities to bring you up to 
date on what they are doing also to meet the requirements of 
national historic status.
    Mr. Hefley. Mrs. Christensen.
    Mrs. Christensen. I don't have any questions at this point, 
Mr. Chairman.
    Mr. Hefley. Committee members, anybody with questions for 
this panel? If not, we thank you, and again we welcome you to 
sit in, if you would like, with us during the deliberations.
    Mr. Simmons. Thank you, Mr. Chairman.
    Mr. Hefley. Panel number two, Mr. Tom Fulton, Deputy 
Assistant Secretary for Land and Minerals Management, the 
Department of Interior, Washington, D.C.; Mr. John Robbins, 
Assistant Director of Cultural Resources, Stewardship and 
Partnership, the National Park Service. Would you join us? Mr. 
Fulton.

 STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY FOR LAND 
    AND MINERALS MANAGEMENT, THE DEPARTMENT OF THE INTERIOR

    Mr. Fulton. Thank you, Mr. Chairman, and thank you, Mrs. 
Christensen and other members of the Subcommittee. I appreciate 
the opportunity to testify today regarding H.R. 2114, the 
National Monument Fairness Act of 2001.
    H.R. 2114 is consistent with and would reinforce actions 
already taken by this administration. As the Federal agency 
tasked by law with developing sound management plans for new 
national monuments, the Department of Interior is committed to 
bringing common sense and balance to the decision process by 
listening to the people most affected by these decisions. We 
have already undertaken that effort, and we believe that the 
result will be land use plans that reflect the special status 
of the lands that we have set aside while ensuring that those 
most directly affected are not disenfranchised by the process.
    Since enactment of the Antiquities Act of 1906, 121 
national monuments have been created by presidential 
proclamation, many of which, such as the Grand Canyon, Carlsbad 
Caverns, the Statue of Liberty, have attained national 
recognition. Others such as Walnut Canyon in Arizona and 
Capulin Volcano in New Mexico are less well-known. Twenty-seven 
States have national monuments and the land area of these 121 
monuments designated over time represent a special use category 
of approximately 100,000 square miles, equal to the combined 
land area of Arkansas, Connecticut, Delaware, Maryland, 
Massachusetts, New Hampshire, New Jersey, Rhode Island, and 
Vermont.
    Congress has in the past acted to convert a number of 
national monuments into national parks, and in addition 
Congress has designated national monuments themselves. Congress 
has also acted to abolish some national monuments such as that 
of Wheeler, Colorado, abolished in 1950.
    In the early years of the Antiquities Act, the War 
Department was given management authority over monuments. 
However, in 1933 President Franklin Roosevelt consolidated 
management of all monuments created to that date within the 
National Park Service. Currently the only monument not managed 
by one of the land management agencies is the President Lincoln 
and Soldiers Home National Monument created July 7th, 2000. 
This 2.3-acre monument is managed by the Armed Forces 
Retirement Home through the U.S. Soldiers and Airmen's Home.
    The overwhelming majority of national monuments created by 
presidential proclamation are managed by the National Park 
Service, beginning with President Theodore Roosevelt's 
proclamation of Devil's Tower National Monument in 1906. Most 
Presidents throughout the 20th century have used the 
Antiquities Act to establish what are now many of the National 
Park System's most famous sites.
    Not all of the proclaimed national monuments have retained 
their National Monument designation. Some have been 
incorporated into larger national park units. Others have been 
redesignated as national parks or other types of units within 
the park system. Additionally, not all national park system 
units carry the name National Monument that were established by 
presidential proclamation. Congress has enacted legislation to 
establish national monuments 38 times. Like the national 
monuments designated by Presidents, some of these monuments 
have been redesignated through acts of Congress as other types 
of units.
    The National Park Service administers national monuments in 
the same manner as other units of the National Park System. 
They are subject to the provisions of the proclamations that 
establish the individual monuments along with subsequent 
legislation addressing them and laws and regulations that 
govern national park units generally. The primary law on which 
the Park Management Service policies are based is the act of 
August 25, 1916, known as the Organic Act, as amended.
    The Bureau of Land Management currently manages 14 
presidentially proclaimed monuments and one congressionally 
designated national monument, the Santa Rosa and San Jacinto 
Mountains National Monument. These monuments range in size from 
a 4,148-acre Kasha-Katuwe Tent Rocks National Monument in New 
Mexico to the 1.8 million-acre Grand Staircase Escalante 
National Monument in Utah. Relatively new to the administration 
of monuments, the BLM manages the monuments subject to the 
provisions of each individual proclamation and the guiding 
principles of the Federal Lands Policy and Management Act, 
known as FLPMA.
    Management of each monument is unique. However, they all 
share some common characteristics. The proclamation under the 
land laws, each limits vehicular traffic, and individual 
proclamations address issues specific to each monument.
    On March 28, 2001, Interior Secretary Gail Norton sent some 
200 letters to local elected officials of all political 
affiliations seeking their ideas on proper and appropriate land 
use. The letter was sent to affected State governors, Members 
of Congress, State House and Senate leaders, county 
commissioners and tribal chairs. The Department is currently 
receiving replies, not only from those who received the letter, 
but from others who have chosen to offer their views as well. 
We believe there are strong public policy reasons to support 
H.R. 2114 because of population growth in the West and the 
impact of such declarations on individuals who live in the 
West.
    In conclusion, the goal of enabling local communities and 
citizens to have the opportunity to be heard prior to the 
creation of a monument larger than 50,000 acres is valid and 
one that the administration supports.
    Thank you again for the opportunity to express the 
administration's views, and I will attempt to answer any 
questions you might have.
    [The prepared statement of Mr. Fulton follows:]

   Statement of Tom Fulton, Deputy Assistant Secretary for Land and 
   Minerals Management, U.S. Department of the Interior on H.R. 2114

        Our duty is to use the land well and, sometimes, not to use it 
        at all. This is our responsibility as citizens, but more than 
        that, it is our calling as stewards of the Earth. Good 
        stewardship of the environment is not just a personal 
        responsibility; it is a public value. Americans are united in 
        the belief that we must preserve our natural heritage and 
        safeguard the land around us. This belief is affirmed in our 
        laws.
        President George W. Bush
        May 30, 2001

    Thank you for the opportunity to appear before you today to provide 
testimony regarding
    H.R. 2114, the National Monument Fairness Act of 2001. H.R. 2114 is 
consistent with and would reinforce actions already taken by this 
Administration. As the Federal agency tasked by law with developing 
sound management plans for new national monuments, the Department is 
committed to bringing common sense and balance to the decision process 
by listening to the people most affected by these decisions. We have 
already undertaken that effort and we believe that the result will be 
land use plans that reflect the special status of the lands that we 
have set aside while ensuring that those most directly affected are not 
disenfranchised by the process.
Background
    Since enactment of the Antiquities Act (16 USC 431-433), in 1906, 
121 national monuments have been created by Presidential proclamation, 
many of which, such as the Grand Canyon, Carslbad Caverns, and the 
Statue of Liberty, have attained national recognition over the years. 
Others, such as Walnut Canyon in Arizona or Capulin Volcano in New 
Mexico, are less well known. Twenty-seven states currently have 
national monuments. The land area of these 121 monuments represents a 
special use of approximately 100,000 square miles of land, equal to the 
land area of Arkansas, Connecticut, Delaware, Maryland, Massachusetts, 
New Hampshire, New Jersey, Rhode Island, and Vermont.
    Congress has in the past acted to convert a number of national 
monuments into national parks. For example, Grand Teton National Park 
began life as Jackson Hole National Monument. Congress has also created 
national monuments independently of the President. In 2000, Congress 
designated the Santa Rosa and San Jacinto Mountains National Monument. 
In addition, Congress has acted to abolish some national monuments such 
as Wheeler, Colorado, which was abolished in 1950.
    In the early years of the Antiquities Act, the War Department was 
given management authority over several monuments. However, in 1933, 
President Franklin Roosevelt consolidated management of all monuments 
created to that date within the National Park Service. Currently, the 
only monument not managed by one of the land managing agencies, such as 
the National Park Service, Bureau of Land Management, United States 
Forest Service or the U.S. Fish and Wildlife Service, is the President 
Lincoln and Soldier's Home National Monument created on
    July 7, 2000. This 2.3 acre monument is managed by the Armed Forces 
Retirement Home through the U.S. Soldiers' and Airmens' Home with 
guidance provided by the National Park Service.
    The following is a brief summary of some of the monuments 
administered by the agencies within the Department of the Interior and 
the authorities used to manage them.
National Park Service
    The overwhelming majority of national monuments created by 
Presidential proclamation are managed by the National Park Service. 
Beginning with President Theodore Roosevelt's proclamation of Devil's 
Tower National Monument in 1906, most of the presidents throughout the 
20th Century used the Antiquities Act authority to establish what are 
now many of the National Park System's most famous sites.
    Not all of the proclaimed national monuments have retained their 
``national monument'' designation. Some have been incorporated into 
larger national park units, and others have been redesignated as 
national parks or other types of units within the National Park System. 
Petrified Forest National Monument in Arizona, for example, was 
redesignated by an Act of Congress as Petrified Forest National Park. 
Chaco Culture National Monument in New Mexico is now Chaco Canyon 
National Historical Park. Santa Rosa Island National Monument in 
Florida is now part of Gulf Islands National Seashore.
    Additionally, not all National Park System units that carry the 
name ``national monument'' were established by presidential 
proclamation. Congress has enacted legislation to establish national 
monuments 38 times. Like the national monuments designated by 
presidents, some of these monuments have been redesignated through acts 
of Congress as other types of units. For example, Harpers Ferry 
National Monument in West Virginia is now Harpers Ferry National 
Historical Park. Biscayne National Monument in Florida is now Biscayne 
National Park.
    The National Park Service administers national monuments in the 
same manner as other units of the National Park System. They are 
subject to the provisions of the proclamations that established the 
individual monuments, along with any subsequent legislation addressing 
them, and to the laws and regulations that govern national park units 
generally. The primary law on which National Park Service management 
policies are based is the Act of August 25, 1916, known as the 
``Organic Act,'' as amended. This law, which continues to serve as the 
basic mission statement of the National Park Service, requires the 
agency ``to conserve the scenery, and the natural and historic objects 
and wildlife therein and to provide for the enjoyment of the same...as 
will leave them unimpaired for future generations.''
    Consistent with that principle, management plans for national 
monuments established by Presidential proclamation that are under the 
National Park Service's jurisdiction are developed in the same manner 
as other units of the National Park System. General management plans 
for park units are guided by the National Parks and Recreation Act of 
1978. This Act directs the National Park Service to prepare and revise 
in a timely manner general management plans for the preservation and 
use of each unit of the National Park System and to include (1) 
measures for preservation of the area's resources, (2) indications of 
the type and general intensity of development, including visitor 
circulation and transportation patterns along with locations, timing, 
and anticipated costs, (3) identification of visitor carrying 
capacities, and (4) indications of potential modifications to the 
external boundaries of the unit. The general management planning 
process includes substantial public involvement.
Fish and Wildlife Service
    In 1978, President Carter designated the 8.6 million acre Yukon 
Flats and the1.2 million acre Becharof National Monuments. These two 
areas remained national monuments until the passage of the Alaska 
National Interest Lands Conservation Act of 1980 which, among other 
things, repealed these monument designations and established them as 
National Wildlife Refuges. Currently, the U.S. Fish and Wildlife 
Service manages the majority of the Hanford Reach National Monument in 
Washington state, created in June of last year, in accordance with 
Presidential Proclamation 7319, the National Wildlife Refuge System 
Administration Act and through permits and memoranda of understanding 
between it and the Department of Energy.
Bureau of Land Management
    The Bureau of Land Management (BLM) manages 14 Presidentially-
proclaimed monuments and 1 Congressionally-designated national 
monument, the Santa Rosa and San Jacinto Mountains National Monument. 
These monuments range in size from the 4,148 acre Kasha-Katuwe Tent 
Rocks National Monument in New Mexico to the 1.8 million acre Grand 
Staircase-Escalante National Monument in Utah.
    Relatively new to the administration of monuments, the BLM manages 
the monuments subject to the provisions of each individual proclamation 
and the guiding principles of the Federal Land Policy and Management 
Act (FLPMA). Management of each monument is unique. However, they all 
share some common characteristics. First, each of the proclamations 
withdraws the land within the monuments, subject to valid existing 
rights, from mining, mineral leasing and entry under the land laws. 
Second, each limits vehicular travel to roads and trails designated for 
such use. Third, each places a priority on managing objects of historic 
or scientific interest within the monument for future generations. In 
addition, individual proclamations address issues specific to each 
monument.
    The BLM has completed a management plan for only one of its 14 
monuments, the Grand-Staircase Escalante National Monument created in 
1996. That management plan was completed in February 2000. A 
comprehensive public planning process is required for each of BLM's 13 
other Presidentially designated monuments. These plans will include in 
depth NEPA analysis, including extensive collaborative public 
participation. Open houses and other opportunities for public input and 
involvement are already underway. Among the issues on which BLM will 
seek guidance and advice from the public are: public access and 
transportation, recreational opportunities, protection of cultural and 
natural resources, environmental education, noxious weed eradication, 
grazing, commercial uses and fire management.
Recent Monument Designations
    On March 28, 2001, Interior Secretary Gale Norton sent some 200 
letters to local elected officials of all political affiliations 
seeking their ideas on proper and appropriate land use plans for the 
national monuments that had been created in 2000 and 2001. The letter 
was sent to affected states' Governors, Members of Congress, State 
House and Senate leaders, County Commissioners, and Tribal Chairs, in 
an effort to foster a cooperative partnership to ensure that these 
monuments are administered in a manner that considers local needs and 
concerns as well as national interests. The Department is currently 
receiving replies not only from those who received the letter, but also 
from others who have chosen to offer their views as well. Gaining 
public input, especially from those most directly affected by the 
creation of these new monuments, is a high priority of this 
Administration.
    We believe that there are strong public policy reasons to support 
this bill. Population, particularly in the American West, has changed 
significantly in the last several years. Areas that for many decades 
had not seen rapid population growth have experienced extraordinary 
growth. In the early years following enactment of the Antiquities Act, 
the impacts resulting from large national monument designations on 
private landowners and local communities were not always as direct or 
significant as they are today. It is a high priority for the 
Administration to gather input from States and local communities as 
part of a collaborative decision-making process on issues that affect 
Federal lands. To that end, the objectives and requirements of H.R. 
2114 are both timely and appropriate.
    In conclusion, the goal of enabling local communities and citizens 
to have an opportunity to be heard prior to the creation of a monument 
larger than 50,000 acres is valid and one that the Administration 
supports. As such, the requirements of H.R. 2114 help to ensure that 
better, more informed decisions are reached where these monuments are 
concerned. As President Bush stated during a recent speech given at 
Sequoia National Park, ``...a healthy environment is a national concern 
and requires an active National Government. At the same time, States 
and localities have their own responsibilities for the environment. 
They have their own authority, too.'' He went on to state, ``Washington 
has sometimes relied too much on threat and mandate from afar, when it 
should be encouraging innovation and high standards from the people 
closest to the land.''
    Thank you again for the opportunity to express the Administration's 
views on this legislation. I will be happy to answer any questions of 
the Committee.
                                 ______
                                 
    Mr. Hefley. Mr. Robbins.

    STATEMENT OF JOHN ROBBINS, ASSISTANT DIRECTOR, CULTURAL 
RESOURCES, STEWARDSHIP AND PARTNERSHIP, NATIONAL PARK SERVICE, 
                 THE DEPARTMENT OF THE INTERIOR

    Mr. Robbins. Morning, Mr. Chairman. I am addressing both 
H.R. 1518 and H.R. 1776.
    On H.R. 1518 we agree that efforts to recognize, protect 
and preserve Avery Point Lighthouse and other lighthouses are 
very worthwhile. Recognition and protection and eligibility for 
most preservation funding begin with listing on the National 
Register of Historic Places. The National Park Service, in 
partnership with State historic preservation officers, is 
responsible for developing and maintaining the National 
Register according to a process established in 1966 by the 
National Historic Preservation Act. The National Park Service 
would be pleased to work the Connecticut State historic 
preservation officer and the owners of Avery Point Lighthouse 
toward listing the property on the National Register of 
Historic Places.
    The Department has concerns about earmarking limited 
National Park Service funds for specific nonpark purposes. 
Although this bill includes a small amount for rehabilitating 
Avery Point Lighthouse, such special support could divert funds 
from important initiatives to address maintenance backlogs in 
national parks. As an appropriate source of funding, Avery 
Point Lighthouse might be a candidate for a grant under the 
Save America's Treasures program, which assists in preserving 
significant endangered properties and collections throughout 
the United States.
    The President's fiscal year 2002 budget proposes $30 
million for the Save America's Treasures program with both 
House and Senate support. The National Park Service administers 
the Save America's Treasures program and would be pleased to 
provide the sponsors of the lighthouse project with information 
on how to apply for Save America's Treasures grants.
    On H.R. 1776, again, thank you for the opportunity to 
present the Department's views on H.R. 1776, which would 
authorize the Secretary of the Interior to study the 
suitability and feasibility of establishing the Buffalo Bayou 
National Heritage Area in Houston, Texas. The legislation also 
authorizes $200,000 in fiscal year 2002 to fund the study.
    Communities such as those surrounding Buffalo Bayou value 
their heritage and open space and are looking for ways to 
maintain and enhance their community resources. A heritage area 
study could consider the best methods for protecting and using 
the natural, cultural, and recreational resources of Buffalo 
Bayou while preserving the character of an area that is so 
central to the history of Houston.
    The Department supports this legislation, if amended to 
make the bill similar to previous national heritage area study 
bills. The Department, however, does not request funding for 
the study in this or the next fiscal year in order to focus 
available resources on completing previously authorized 
studies. Currently, 41 authorized studies are pending and we 
expect to complete only a few of those this year.
    We also caution that our support of this legislation 
authorizing the study does not necessarily mean that the 
Department will support designation of Buffalo Bayou as a 
national heritage area. The administration is determined to 
eliminate the deferred maintenance backlog in national parks. 
The cost of new parks or other commitments such as grants for 
new heritage areas could divert funds from taking care of 
current responsibilities.
    H.R. 1776 and ongoing community involvement demonstrate 
commitment to protecting and preserving Buffalo Bayou. We would 
be happy to work with the Subcommittee and with the bill's 
sponsor, Representative Green, to amend the legislation so that 
H.R. 1776 is similar to other bills that have authorized 
studies of potential heritage areas. Proposed amendments to 
H.R. 1776 are attached to the end of the testimony submitted.
    I would be happy to respond to any questions that you or 
other Committee members might have on these matters.
    [The prepared statements of Mr. Robbins follow:]

   Statement of John Robbins, Assistant Director, Cultural Resources 
 Stewardship and Partnerships, U.S. Department of the Interior on H.R. 
                                  1518

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1518, to require the Secretary of the Interior to include on the 
National Register of Historic Places the Avery Point Lighthouse in 
Groton, Connecticut, and provide $200,000 for the restoration of that 
lighthouse.
    The Department appreciates the efforts to protect this historic 
lighthouse. This site could be an excellent candidate for funding 
through the Save America's Treasures program, for which the President's 
fiscal year 2002 Budget proposed $30 million and the House and Senate 
have both supported. We would be happy to provide the local sponsors 
with more information on how to apply for these grants to protect the 
historic buildings, sites, artifacts, and collections that represent 
significant achievements in American culture.
    The Department, however, has concerns with the concept of 
earmarking limited National Park Service funds for specific non-park 
facilities. Although the amount in this bill is small, it nevertheless 
diverts funds away from the President's initiatives to take care of 
current responsibilities by addressing deferred maintenance backlogs. 
The Department supports the principle that States--not the Federal 
Government--are best suited to determine the highest priorities for 
using grant funding, including Historic Preservation Fund funds, which 
would be allocated in this bill for a specific project. We are 
concerned that legislative earmarks could effectively take funding away 
from grants to States and Indian tribes nationwide and dictate how 
those funds should be spent.
    We support efforts to preserve significant historic lighthouses, 
which are important national historic treasures worthy of our care and 
attention. We note that this Committee took the lead in passing 
legislation to facilitate the transfer of historic lighthouses to non-
government organizations willing to help preserve them. We stand ready 
to help the owners of this lighthouse to recognize this historic 
structure by nominating it for listing on the National Register of 
Historic Places. Long-standing procedures, however, require that the 
owners work through the State's Historic Preservation Officer, and we 
understand that such coordination on an application has not been 
completed. If needed, we can help the owners, working with the 
Connecticut State Historic Preservation Officer, on the documentation 
necessary to evaluate the property's eligibility for listing.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 

   Statement of John Robbins, Assistant Director, Cultural Resources 
Stewardship and Partnerships, National Park Service, U.S. Department of 
                       the Interior on H.R. 1776

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H. R. 1776. This bill would 
authorize the Secretary of the Interior to study the suitability and 
feasibility of establishing the Buffalo Bayou National Heritage Area in 
west Houston, Texas.
    The Department supports this legislation, if amended to make the 
bill similar to previous national heritage area study bills. 
Nevertheless, we will not request funding for the study in this or the 
next fiscal year so as to focus available time and resources on 
completing previously authorized studies. As of now, there are 41 
authorized studies that are pending, and we only expect to complete a 
few of those this year. We caution that our support of this legislation 
authorizing a study does not necessarily mean that the Department will 
support designation of this National Heritage Area. The Administration 
is determined to eliminate the deferred maintenance backlog in national 
parks, but the costs of new parks or other commitments, such as grants 
for new National Heritage Areas, could divert funds from taking care of 
current responsibilities. Furthermore, in order to better plan for the 
future of our National Parks, we believe that any such studies should 
carefully examine the full life cycle operation and maintenance costs 
that would result from each alternative considered.
    H.R. 1776 outlines the characteristics and qualities of the Buffalo 
Bayou area in Houston, Texas including the history and role of the 
Bayou in the creation and development of the city. The bill authorizes 
the Secretary of the Interior to conduct a suitability and feasibility 
study to determine if the area known as Buffalo Bayou in Houston, Texas 
could be designated as a national heritage area. The legislation 
authorizes $200,000 in Fiscal Year 2002 to fund the study, with a 
report due to Congress describing the results of the study.
    The National Park Service has not had extensive involvement in the 
Houston area. However, the Rivers, Trails and Conservation Assistance 
Program (RTCA) has worked with the Buffalo Bayou Partnership and other 
local groups to establish a 5 mile rail-trail that runs parallel to the 
Bayou. Through that work, and from brief reviews of planning documents 
and activities surrounding the Bayou, it is clear that this area of 
Houston was central to the creation of the city. The Bayou has now 
become a focal point for downtown Houston, encouraging its residents to 
enjoy, use, and appreciate their great resources today as the city 
continues to renew and define itself.
    It is also evident that the groups and communities in the area 
value their heritage and open space and are looking for ways to 
maintain and enhance these qualities. A study that looks at the 
natural, cultural, and recreational significance and values of the area 
could make recommendations on the best method to protect and use these 
resources while retaining the character of this part of Houston.
    As we have testified previously before this subcommittee, there are 
several steps we believe should be taken prior to Congress designating 
a national heritage area to help ensure that the heritage area is 
successful. Those steps are:
    1. Lcompletion of a suitability/feasibility study;
    2. Lpublic involvement in the suitability/feasibility study;
    3. Ldemonstration of widespread public support among heritage area 
residents for the proposed designation; and
    4. Lcommitment to the proposal from the appropriate players which 
may include governments, industry, and private, non-profit 
organizations, in addition to the local citizenry.
    H.R. 1776 and previous work in the community demonstrates the 
commitment to the idea of pursuing a study to look at further 
protection and preservation options. It is also apparent that there is 
widespread support for the Buffalo Bayou that will ensure public 
involvement. A critical element of the study will be to evaluate the 
integrity of the resources and the nationally distinctive character of 
the region before recommending national heritage area designation.
    We would be happy to work with the subcommittee and the bill's 
sponsor, Representative Green, to amend the legislation so that it is 
similar to other bills that have authorized studies of national 
heritage areas. We have attached proposed amendments at the end of this 
testimony.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                          Proposed Amendments
    H. R. 1776, to authorize the Secretary of the Interior to study the 
suitability and feasibility of establishing the Buffalo Bayou National 
Heritage Area in west Houston, Texas.

    On page 3, line 20 insert ``the City of Houston, and other 
appropriate organizations'' after ``the State of Texas,''.

    On page 3, line 19 insert ``(1)'' before ``The Secretary shall,'' 
and then insert a new paragraph (2) on page 3, line 23 as follows:
        ``(2) The study shall include analysis and documentation that 
        the Study Area:
        (A) Lhas an assemblage of natural, historic, and cultural 
        resources that together represent distinctive aspects of 
        American heritage worthy of recognition, conservation, 
        interpretation, and continuing use, and are best managed 
        through partnerships among public and private entities and by 
        combining diverse and sometimes noncontiguous resources and 
        active communities;
        (B) Lreflects traditions, customs, beliefs, and folklife that 
        are a valuable part of the national story;
        (C) Lprovides outstanding opportunities to conserve natural, 
        historic, cultural, and/or scenic features;
        (D) Lprovides outstanding recreational and educational 
        opportunities;
        (E) Lcontains resources important to the identified theme or 
        themes of the Study Area that retain a degree of integrity 
        capable of supporting interpretation;
        (F) Lincludes residents, business interests, non-profit 
        organizations, and local and state governments who are involved 
        in the planning, have developed a conceptual financial plan 
        that outlines the roles for all participants including the 
        federal government, and have demonstrated support for the 
        concept of a national heritage area;
        (G) Lhas a potential management entity to work in partnership 
        with residents, business interests, non-profit organizations, 
        and local and state governments to develop a national heritage 
        area consistent with continued local and state economic 
        activity; and
        (H) Lhas a conceptual boundary map that is supported by the 
        public.

    On page 3, line 23 through page 4, line 2 strike Section 2(c) and 
replace with the following:
        ``(c) BOUNDARIES OF THE STUDY AREA. The Study Area shall be 
        comprised of sites in Houston, Texas, in an area roughly 
        bounded by Shepherd Drive and extending to the Turning Basin, 
        commonly referred to as the Buffalo Bayou.
                                 ______
                                 
    Mr. Hefley. Thank you very much. Let me ask a mechanical 
question first of all. The rules require that the 
administration testimony be submitted to us 2 days in advance. 
We got it last night about 7 o'clock, I think. What is the 
mechanical problem? This doesn't give us a chance to really go 
over your testimony and be prepared to ask intelligent 
questions and so forth. What is the mechanical problem 
connected with that and can that be corrected?
    Mr. Fulton. Mr. Chairman, I apologize for the delay in 
getting the reply. As you may know, the Secretary has been, 
quote, home alone at the Department of Interior. That today 
will be somewhat rectified by the swearing in of an additional 
six individuals. It literally has been a case of there has been 
not enough individuals at the Department, but that is a matter 
that is rectifying itself and I would certainly hope that in 
the future we could be more timely with our submissions.
    Mr. Hefley. Well, if you can, that will be very, very 
helpful to us.
    Mr. Fulton, you mentioned in your testimony that the Bureau 
of Land Management has only completed one of 14 management 
plans toward 14 monuments. How much time and money has the 
Bureau spent just on the management plan for the Grand 
Staircase Escalante National Monument and what do you see as 
the overall cost in staff time to complete the balance? Do you 
not agree that the monument designations by President Clinton 
which were accompanied by no budget or management plans just 
added to the already difficult fiscal and management problems 
faced by our Federal land managers?
    You know Clinton went on an orgy of naming monuments before 
he got out of office. I don't think there is any question about 
that. He was desperately searching, I guess, for a legacy and 
he thought this would be his legacy, and some of it is probably 
good and some of it is very questionable. So would you respond 
to that question, please?
    Mr. Fulton. Yes, sir. It is very clear that the Bureau of 
Land Management and the other land management agencies face a 
very, very complex and difficult mission as they administer 
public lands. These are public lands that are in everyone's 
backyard and everyone feels personally attached to at least 
their piece of public land. It is analogous, I guess, to the 14 
monuments that were designated in the years 2000, 2001 as sort 
of like the pig and the python there. They are going through 
the land management process and it will cost millions of 
dollars, I don't know the exact number, and it will involve 
substantial numbers of people.
    The Grand Staircase Escalante management plan, I am not 
certain of the dollar amount that was expended there, and we 
can get that information for the Committee, but it was a 3-year 
planning process that involved certainly at least more than a 
million dollars. I am not sure what the exact amount was.
    Mr. Hefley. Well, I remember when Senator bill Armstrong 
was doing the Colorado Wilderness Act, trying to put that 
together, and you know, we had Senators from Colorado come and 
go working on that over the years. We had Senator Hart, we had 
Senator Wirth, and senator Armstrong finally got something 
done, but he knew where every mine, every claim, every road, 
every communication tower, he knew exactly where all of that 
was, and they planned the wilderness area with that in mind. 
You can't do that when a President just arbitrarily designates 
something because he thinks it is a good idea, and in this 
particular case it was very interesting that he didn't even 
think it was attractive enough to go there to do his 
announcement. He did the announcement in Arizona where he had a 
better background.
    By and large, shouldn't there be careful planning in 
advance before these things are done, and, as was indicated by 
Mr. Simpson, wasn't the purpose of the law to take care of 
things that, by gosh, there is going to be a Wal-Mart there if 
we don't do something immediately, let's do it now, not to do 
things that there is no imminent danger? And I have asked too 
many questions and I apologize.
    Mr. Fulton. That is all right. I will sort through them and 
see which ones I can answer. I think the Secretary shares your 
concern, which is why early on once she was sworn in she 
reached out by mailing out over 200 letters to every local 
county commissioner, tribal chair, State House and Senate, 
bipartisan, Republican and Democrat, governors, Members of 
Congress, senators of those States impacted and affected by the 
designation of these monuments in 2000 and 2001 because that is 
in fact what she wants to know through local consultation and 
communication, what is it that the impact of these monuments 
implies for these local areas. She also has not had the 
opportunity to visit all 20 of them but she very much wants to 
hear from local impacted individuals to see what it means in 
their lives.
    The Grand Staircase, for instance, in the southern counties 
of Utah represents, well, the public land base represents 
nearly 90 percent of the total for those counties. So anything 
that the Federal Government does in those areas, those rural 
areas, can have a tremendous impact on the local population and 
is something she wants to be very much aware of as she moves 
forward in the very difficult task of administering these 
monuments.
    Mr. Hefley. Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I guess I will 
direct my first question to Mr. Robbins. How long is the 
process on average for a property to be placed on the National 
Register?
    Mr. Robbins. Something between a year and 2 years. Each 
State has a National Register Review Board, which is a citizens 
advisory Committee, and so the process includes the 
investigation of the proposal, the preparation of the 
nomination, and then the nomination must go before each State's 
citizens advisory committee, the National Register Review 
Board, and those meetings are scheduled, depending on the 
State, either twice, three or four times a year, and then the 
nomination if it has the concurrence of the review board is 
then forwarded to the National Park Service for listing.
    Mrs. Christensen. Thank you. And you are not really 
opposing the inclusion of the lighthouse, you think it is a 
good property, you just agree with us on the process; is that 
correct?
    Mr. Robbins. In fact, we don't know that much about the 
lighthouse because the information hasn't been transferred to 
the National Park Service through the process.
    Mrs. Christensen. And you also indicated that there were 
other sources of funding that you would be happy to assist?
    Mr. Robbins. The two chief sources of funding for historic 
properties that are listed on the National Register are the 
Historic Preservation Fund, the portion of which is distributed 
to the States, and then the Save America's Treasures program, 
which is also funded through the Historic Preservation Fund, 
which has both a competitive and has an earmarked portion.
    Mrs. Christensen. Thank you. Mr. Fulton, in your testimony 
you said that there was strong public policy reasons for the 
administration to support 2114. Could you elaborate on those 
reasons for us?
    Mr. Fulton. Yes, ma'am. It is the local consultation, the 
need to visit with and fully understand the local concerns as 
these processes move forward, visiting with people at the front 
end of these monument designations in an effort to fully 
understand the impact that the Federal Government can have when 
it makes a specific land use designation.
    Mrs. Christensen. Well, we appreciate the consultation part 
of the bill and we did receive a letter from the Secretary. It 
is with our governor and I think we have responded to it. I am 
clear on the administration's support of the consultation and 
advocacy for the consultation part of the bill, but I am not 
clear whether the administration is in support of some of the 
other areas, the limitation placed on the monuments and the 
need for congressional approval of those monuments after 2 
years. Does the administration also support that part of the 
bill?
    Mr. Fulton. It is my understanding that it does, yes. My 
testimony was cleared through the Office of Management and 
Budget representing the White House. It is my understanding 
that that testimony was approved by them. The size of these 
monuments can very dramatically impact the land use for local 
communities, and some of the monuments created are nearly 2 
million acres in size, and the grand total for this special use 
category of land use within the Federal Government is, as I 
said, almost 100,000 square miles, representing the total land 
area of many States. This is a significant constriction on the 
multiple use that these lands were open for prior to their 
designation as a monument.
    Mrs. Christensen. I would think that you know that issue 
could have been settled during the consultation process, but 
for Congress to be able to by not approving and in essence 
overturn a presidential declaration, that limits the authority 
of the President and significantly changes the intent of the 
Antiquities Act. The administration supports that?
    Mr. Fulton. It is my understanding through the clearance of 
the testimony that it does. The Antiquities Act, as pointed out 
by Mr. Simpson, was meant to protect some of the cultural and 
archaeological resources and, to the smallest extent 
practicable, some of these monument designations in the 
millions of acres, they are extraordinarily large, and whether 
they are needed to protect those archaeological or antiquities 
resources is just an issue still open for debate.
    Mrs. Christensen. The bill also, just one short question, 
also says that any management plan shall comply with NEPA. Are 
monuments currently not required to comply with NEPA?
    Mr. Fulton. No, it is my understanding that well, under--
no, I believe that they do, that all the environmental laws 
that are relative and applicable would in fact be applied in 
monuments that are already extant and newly created monuments 
as well. Adequate environmental laws are already on the books.
    Mrs. Christensen. Apply. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Simpson.
    Mr. Simpson. My understanding is that with the NEPA you do 
not have to go through the public comment period and everything 
else that is required by the NEPA process when you declare a 
National Monument and that is the intent of this, that you have 
to go through the public process, the same public process as 
all other environmental laws that are required.
    The concern of overturning a presidential declaration and 
authority of the President, this is authority given to the 
President by Congress. It is not authority in the Constitution. 
The Constitution gives Congress the right to make land use 
designations, and we have delegated some of that authority to 
the President to do that. Certainly we can overturn by law a 
presidential declaration of a monument or change it, as has 
happened.
    The concern is, and I will use this example just because it 
is one of the more recent ones, but with the Grand Staircase 
Escalante that was declared in 1995 or 1996, whenever it was, 
if the President declared that a National Monument and Congress 
wanted to overturn that, it would have to essentially have two-
thirds vote in the House and Senate to override a presidential 
veto because the President would probably veto a bill 
overturning a National Monument that he created, and to me, 
that is just bassackwards from the way that things should act. 
Congress should be the ones to make these types of things maybe 
upon recommendation from the President, that is fine, but 
Congress ought to be involved particularly in these huge 
designations.
    And if you look back in the history, since 1906, at the 
designations, most of them were 160 acres, 1,100 acres, 1,600 
acres. Occasionally--the Grand Canyon was 808,000 acres. I 
believe Congress would have probably acted to protect that, as 
we have. Since the Wilderness Act was enacted we have put over 
128 million acres in national wilderness. So Congress has not 
been irresponsible in this area. 639 acres in Mount Olympus, 
but most of them were 2,000, 10,000, 20,000. And then in the 
later years as we get into the National Monument Act, if you 
look at as an example in the Carter years, 1.1 million, 350,000 
acres, 1.2, 2.6, 3.8, 8.2, 10.9, 10.6 millions of acres and 
these monuments have become not what they were originally 
intended to protect these archaeologically significant areas 
and so forth, but they have become ways of taking huge tracts 
of land and making land use designations without any public 
input or the requirement for any public input, and that is my 
concern with this legislation and whether the law is actually 
being followed as it was intended. And I will use this example.
    Craters of the Moon expansion in Idaho took 52,000 acres 
and expanded it by an additional 660,000 acres. I wasn't 
opposed to it, and in fact I talked to the Secretary a couple 
of times about it and offered to run legislation to create it. 
It had been talked about several times in Idaho and so forth. 
But if you look at the standard by which you can declare a 
National Monument, that it has to be unique and geological and 
of some significance, that area qualifies. Has to be under some 
imminent threat. I repeatedly wrote to the Secretary and said 
what is the imminent threat of this area, and there is none. 
There is totally no imminent threat to this. You can't walk 
across this area. I mean it is nothing but lava rock. And he 
eventually told me that it was to protect from future mining 
claims. There are no mining claims out there. No one is going 
to want to mine out there, and the Antiquities Act is not to 
protect something from something that might happen in the 
future. It is for an imminent threat that currently exists.
    And so that is why this legislation is here. It is not to 
undermine the Antiquities Act. You know, I want to preserve 
these areas as much as anybody does, but I do believe the 
public has a right to have some participation and Congress has 
a right to have some participation in this designation. And 
this is not an anti-Clinton or an anti-anything else bill. It 
is one that says Congress ought to be responsible and take back 
some of its authority, but I appreciate the--I know that is not 
in the form of a question. I appreciate your testimony on the 
legislation, and I look forward to working with the 
administration on this and I appreciate the attitude of the 
administration.
    I know that they are not out to overturn national monuments 
willy-nilly or anything else, but they are asking for input 
from the public as to the effects of these national monuments 
and if changes need to be made or whatever so that they can 
look at it in a rational manner rather than just declare 
national monuments. I appreciate it.
    Thank you.
    Mr. Hefley. Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I actually 
have only one comment to make and then perhaps one short 
question for Mr. Robbins, but with regard to public lands, Mr. 
Fulton, being in your backyard, Reno recently I read was 
designated as the highest density city per square mile of 
population of any city in the United States, registered number 
one, which points to me that in Nevada public land is not only 
in your backyard, it is your front yard and it is your side 
yard. The State of Nevada, something less than 90 percent of it 
is owned by the public and that is a large area of Nevada. In 
some counties we have 98 percent of the land in those counties 
owned by the public and it is indeed frustrating, difficult and 
many times impossible for local governments to use the property 
tax base to fund needed resources and operations within those 
counties.
    Mr. Gibbons. Now, that point being made, let me ask Mr. 
Robbins with regard to the lighthouse in Connecticut, I presume 
that lighthouse in Connecticut is publicly owned at this point 
in time, the university or--is there--and this would be my 
question, is there historic precedent for funding restoration 
of such lighthouses publicly owned in the past through the Park 
Service?
    Mr. Robbins. Yes, there is.
    Mr. Gibbons. So this is not something we are going to 
create out of whole cloth as a unique change or circumstance 
under which the government hasn't done this before.
    Mr. Robbins. I think the difference would be that previous 
funding, because Congress had begun the maritime initiative, 
which the National Park Service administers--the difference is 
that the emphasis through the maritime initiative is on 
already-listed National Register properties.
    Mr. Gibbons. Is there an effort, then, to transfer title to 
the National Park Service once these funds and restoration have 
been completed?
    Mr. Robbins. Through the maritime initiatives?
    Mr. Gibbons. Yes.
    Mr. Robbins. No. In fact, the effort is in the other 
direction. It is to find public or nonprofit owners other than 
the National Park Service for maritime resources including 
lighthouses.
    Mr. Gibbons. That is the only question I have, Mr. 
Chairman. Thank you.
    Mr. Hefley. Mr. Cannon.

   STATEMNENT OF THE HON. CHRIS CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I want to thank our 
panel for coming today, and especially I would like to thank 
you, Mr. Fulton, for the attitude of this administration which 
is pleasant. I'd like to recall, to everyone's memory, the 
abuses of the Antiquities Act were truly monumental in their 
excess. The previous administration, as this Committee has 
pointed out in the past in a report, actually lied to the 
delegation from Utah about the imminent designation. And the 
public input was limited to a phone call of about one-half hour 
duration with the Governor of Utah, which was initiated by the 
President at 2 or 3 in the morning.
    Fortunately, the Governor had some handwritten notes at his 
bedside and was able to convey a number of points which were 
hastily included in the designation, but overwritten, 
undermined, and ignored in the planning process. So we 
appreciate your being here. Let me just say I recently had a 
couple of town hall meetings in the two areas. In fact, you 
pointed out, Mr. Fulton, these areas are nearly 90 percent 
public lands, these two countries that are affected. They are 
actually 93% public lands. And so, if the Federal Government 
sneezes, people die of pneumonia. And this is now years and 
years after the designation, after the plan has finally been 
finished. It was surprising to me to see the intensity of 
emotion and the pain that is still being felt in that area by 
those people on many levels on the level of just the 
invasiveness of some of the recent decisions of managers in the 
area, but also based upon the way the plan went forward. I 
think that what President Clinton did was deeply destructive of 
the faith and trust of the American people and has required 
that we in Congress act to put some constraints.
    I think this bill is infinitely reasonable but would not 
even be before the American people except for the abuses that 
the Antiquities Act was used to foist off on the American 
people. So we are anxious to work with you. We are thrilled. I 
would say the people in Utah have been waiting for the 
confirmation process, the political people from the Department 
of Interior were thrilled to see that happen. I have the 
greatest expectations that this administration will not respond 
with excess to the excesses of the prior administration, but 
with thought, with a process that is inclusive and helpful and 
that we will get on with solving some of the problems that have 
been created by the prior administration, which have been 
extreme in the lives of the few people that live at least in 
those two countries which wholly encompass the Grand Staircase-
Escalante National Monument, which are both in my district. So 
we are pleased to have you here and look forward to working 
with you and the administration over time on these issues. 
Thank you and I yield back.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                  from the State of Utah on H.R. 2114

    Thank you, Mr. Chairman, for holding this hearing.
    As many of you know, the people in my district were the first to 
suffer under former President Clinton's abuse of the Antiquities Act. 
The problems that this bill seeks to solve were epitomized by the 
flawed process used to designate the Grand Staircase-Escalante National 
Monument.
    Recently, I held two meetings in my district to gain a better 
understanding of the issues that still remain. Several hundred people 
attended and provided poignant testimony of the disruption the Monument 
has caused in their lives. If the National Monument Fairness Act had 
been in place, these people would have been able to provide their input 
prior to the designation, eliminating many of the problems and ensuring 
that the Monument protected existing uses.
    In the absence of checks and balances in the process, Utah's 
Governor Leavitt was awakened by a phone call late the night before 
Clinton designated the Monument. The Governors of our states must know 
of the President's intentions in time to provide their important and 
detailed feedback.
    The Antiquities Act can serve an important purpose in protecting 
lands from imminent danger. However, the Grand Staircase-Escalante 
National Monument comprises almost 2 million acres. Clearly, a change 
in the management of such a large amount of land should be addressed by 
Congress, the body charged with determining public lands policy, and 
not take place by executive fiat.
    I firmly believe that we must amend the Antiquities Act to ensure 
that an orderly process is followed when designating a National 
Monument, one that provides for local input before irrevocable 
decisions are made. More importantly, the people in my district would 
be relieved to know that the abuse of the Antiquities Act that they 
suffered will not be imposed on others.
    I look forward to hearing the testimony of the witnesses and 
especially welcome Mike Noel, Chairman of the Kane County Resources 
Development Committee in Kanab, UT. He has provided invaluable 
information to my office throughout this process and I expect that he 
will also provide invaluable information to the committee.
                                 ______
                                 
    Mr. Hefley. Mr. Duncan.

STATEMENT OF THE HON. JOHN DUNCAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Duncan. Thank you, Mr. Chairman. I don't have any 
questions, but I would like to make a couple of comments, and 
first of all, I would like to voice very strong support for Dr. 
Simpson's bill. I think that many of our environmental policies 
and actions in recent years have been dictated or controlled by 
extremists, and this bill is a very reasonable attempt to put a 
little tiny bit of balance and moderation back into our 
environmental policies. And I think anyone who opposes this 
would be opposing any type of minimal public input into this 
process, and really would be coming out in favor of secrecy or 
doing things in a dictatorial fashion that I think is very 
unAmerican.
    I remember well some of the hearings on the Grand 
Staircase-Escalante Monument in which it was brought out after 
the fact that one of the law professors, I believe from 
Colorado who was involved in the process many months in 
advance, had put out a memo to the White House stating that he 
couldn't overemphasize the need for secrecy in the process, 
because if there was public notice, that there would be such a 
huge outcry against this. And that is really sad to think that 
we have got to the point where we are doing things in secrecy 
so that the people have no knowledge or input or no voice in 
their own government.
    And then I remember the Governor of Utah being here to 
testify and saying that he first read about the possibility of 
this just a few days in advance in The Washington Post, and 
then he got this after-midnight call that Mr. Cannon just 
referred to. We always hear about Theodore Roosevelt in here. I 
think Theodore Roosevelt would be shocked to know how much land 
is in the public domain today. Over 30 percent of the land in 
this country is owned by the Federal Government, and another 20 
percent is owned by the State and local governments and quasi-
governmental agencies. And his first designation under this 
Antiquities Act was a little over 1100 acres. In the first 10 I 
see 857 acres, 533 acres, 360 acres, 487 acres. And you go on 
down and you see from 1939 to 1978 a 40-year period there. 
There were three designations: 1481 acres, 880 acres, 311 
acres, for 40 years, none between 1980 and 1989.
    And then you get into this period here where you start 
getting into all these million-acre designations. And unless 
you just want the Federal Government to take over all the land 
in this country and you just want to--I believe there are some 
people who want to do away with private property. Yet if we 
don't realize--if we don't wake up and realize that private 
property is one of the foundations and cornerstones of not only 
our freedom, but of our prosperity, we are going to be in bad 
trouble in this country.
    I will say on the other things, unfortunately, we have got 
many, many, many local governments now because we have 
designated all the big things as national parks or national 
forests or whatever, we are having many people come to us now 
for what should be items that are being done by local, city or 
county governments or State governments, almost all of which 
are in better financial shape than the Federal Government, 
which is still almost $6 trillion in debt. So I do wonder about 
that, Mr. Chairman. I heard some comments that you made in that 
regard. But that is--I do want to say that I am strongly in 
support Dr. Simpson's bill, and I hope that we can move that 
very quickly through this Subcommittee and Committee. Thank you 
very much.
    Mr. Hefley. Mr. Duncan, thank you. Mr. Robbins--I am sorry. 
Mr. Simmons, before I ask another question.
    Mr. Simmons. Thank you, Mr. Chairman and the Subcommittee 
for the courtesy of allowing me to sit here. I truly appreciate 
it. Let me just very briefly thank Mr. Robbins for his 
statement that he feels the Avery Point Lighthouse Project is 
worthwhile, and that he looks forward to working with us on 
that. He made some very helpful suggestions which we will 
follow up on.
    With the permission of the Chair, we would like to submit 
some additional information that we don't have with us here 
today that relates to the efforts to get the State of 
Connecticut to assist us for placing this on the national 
historic list. And if that is agreeable to the Chair, we will 
submit that by letter within the next week or 10 days. We have 
that ongoing, but we don't have that in our presentation.
    And let me finally just comment on his remarks or his 
testimony regarding earmarking. He did indicate that earmarking 
is not preferred by the agency, and I appreciate that. He, of 
course, referred to it as a small amount which it is, but let 
me just simply comment that this lighthouse was constructed by 
the Federal Government in 1943 through the Coast Guard. It was 
designated at the time as a memorial to all lighthouse keepers, 
all members of the Coast Guard and other citizens who, in some 
cases, placed their lives on the line to preserve and protect 
not only those involved in the maritime trades, but any others 
who needed this assistance as they made their way at sea. When 
the Coast Guard turned the property over to the State of 
Connecticut in 1967, I grant you, we failed in our fiduciary 
responsibility to maintain the property. We failed. And we came 
very close to losing the property a couple years ago when it 
was considered a hazard and designated for demolition. But we 
have realized our mistake. We have thousands of local citizens 
who have contributed money. We have had money come in from two 
municipalities, the city of Groton and the town of Groton, and 
we have had money designated by the State of Connecticut.
    So all we are asking is a small amount earmarked by the 
Federal Government to partner with us and to reflect that 
original fiduciary interest that the Federal Government had in 
this property when they built it. And with that, I thank the 
Chairman again and yield back my time.
    Mr. Hefley. Thank you. One last question for me, Mr. 
Robbins. You indicated that there are 41 authorized studies 
that are pending, and that I only expect a few of those studies 
to be completed this year. I would like for to you elaborate a 
little bit more about what ``a few'' means, and if you are only 
going to do a handful a year, then we are talking maybe 7 or 
maybe 8 years to finish these studies. And maybe give us an 
idea of how soon you anticipate getting the 41 authorized 
studies completed.
    Mr. Robbins. Sir, I would have to look into the status of 
each of the authorized studies and get back to you with 
additional information on that, which I will do.
    Mr. Hefley. If you would do that, that would be helpful. 
Further comments or questions? If not, thank the witnesses. And 
appreciate you being here.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3923.020
    
    [GRAPHIC] [TIFF OMITTED] T3923.021
    
    Next panel, panel 3, will be composed of Ms. Adena Cook, 
Public Lands Director, Blue Ribbon Coalition, Idaho Falls, 
Idaho; Mr. Mike Noel, Chairman, Kane County Resources 
Development Committee, Kanab, Utah; Mr. Theodore Roosevelt, IV, 
from New York. Of course he would be from New York.
    Mr. Hefley. We will start with Ms. Cook.

  STATEMENT OF ADENA COOK, PUBLIC LANDS DIRECTOR, BLUE RIBBON 
                           COALITION

    Ms. Cook. Thank you, Mr. Chairman. The Blue Ribbon 
Coalition supports H.R. 2114 which amends the 1906 Antiquities 
Act. H.R. 2114 sets up a legal process to establish large scale 
national monuments. I would like to give you examples of why 
that process is necessary. President Clinton first used the 
1906 Antiquities Act to designate Grand Staircase-Escalante 
National Monument in Utah in 1996. That monument encompassing 
1.7 million acres was declared without prior notice to Utah's 
Governor, congressional delegation or residents local to the 
area.
    And it is possible that the controversy over the secrecy 
surrounding this monument influenced Secretary of Interior 
Bruce Babbitt to get subsequent announcements an aura of 
process by means of informal visits to the area.
    The circumstances surrounding the designation of the 
Craters of the Moon National Monument Expansion is an example. 
On April 18th, 2000, Babbitt met with the local residents in 
the area, visited on the ground with local grazers, and also 
the public in Arco, Idaho. His visit was generally unannounced. 
He traveled again to Idaho on June 23rd and met with a few more 
citizens in Rupert. That time our executive director, Clark 
Collins, discussed our concerns about roads, trails and access 
directly with the Secretary. Collins was promised that his 
suggestions would be considered. Babbitt asked him for some 
language. But nothing further was heard and our suggestions 
were ignored. Similarly, the hunting access issue was ignored 
in the proclamation, even though Babbitt had been aware of the 
problems.
    Now Congressman Mike Simpson has had to introduce 
legislation to correct this deficiency. It will take an act of 
Congress to correct what could have been a simple matter had an 
official process been in place.
    The Cascade-Siskiyou National Monument is another example. 
It is located on Oregon's southern border with California and 
encompasses around 85,000 acres with about 53,000 BLM monument 
property and 32,000 private property. The BLM was aware of what 
this area's special values and features was and in the middle 
of a planning process when Babbitt showed up in October 1999 
with a monument in mind.
    Now you have this map before you. But how would you like to 
be a monument manager trying to manage these little isolated 
parcels surrounded by private property and conversely, be a 
private property owner surrounded by monument. The intermingle 
ownership will consume Federal and public attention for some 
time to come. And the EIS process that the BLM had in place 
already could have sorted this out. Now the use of the 
Antiquities Act in this way has been challenged in court. A 
lawsuit is still pending on the Grand Staircase-Escalante in 
Utah.
    In the Mountain States Legal Foundation of Blue Ribbon 
Coalition has sued over the establishment of six other national 
monuments. These lawsuits are still pending. In almost all 
these monuments, there has been insufficient inventories of 
roads, trails and recreation access. Monument status means that 
recreation opportunities will be lost without ever evaluating 
their significance.
    Last year, Congressman James Hansen introduced H.R. 1487, 
which is similar to H.R. 2114, but reasonable discussion over 
this legislation was poisoned by speculation over designation 
of the ad hoc process, the secrecy and the polarization. The 
events surrounding the creation of large scale national 
monuments since 1996 have revealed the problems that can be 
created when unilateral declarations are made without a formal 
process. H.R. 2114 remedies this and sets a process in place.
    Now, past events have demonstrated that an ad hoc arbitrary 
process is already in place. It will take place as it has in 
the past with headline grabbing, speculation, polarization. 
H.R. 2114 offers a far better option. It assures the 
Antiquities Act can be used to set aside special places, but a 
process will be followed that will direct discussion in a 
productive way.
    Mr. Hefley. Thank you.
    [The prepared statement of Ms. Cook follows:]

Statement of Adena Cook, Public Lands Director, BlueRibbon Coalition on 
                               H.R. 2114

BACKGROUND
    President Clinton first used the 1906 Antiquities Act to designate 
the Grand Staircase Escalante National Monument in Utah in 1996. That 
monument, encompassing 1.7 million acres, was declared without prior 
notice to Utah's governor, congressional delegation or residents local 
to the area. The press who were invited to the proclamation ceremonies 
knew about the forthcoming announcement before Utah's elected officials
    The announcement was followed by a firestorm of controversy. The 
internal dealings within the administration that led to the selection 
of the area and its designation were subsequently investigated and 
reported by Congress. Congressional investigation revealed internal 
discussions creating a paper trail to give a semblance of internal 
process. Apparently, the administration was attempting to bolster the 
credibility of the proclamation. These machinations within the 
administration have been well documented by an investigative report 
authored by this very committee in 1997, ``Behind Closed Doors: The 
Abuse of Trust And Discretion In The Establishment Of The Grand 
Staircase-Escalante National Monument.'' - Majority Staff Report, 
Subcommittee on National Parks & Public Lands, Committee on Resources.
    The procedural deficiencies of the Antiquities Act were highlighted 
by this first and largest national monument declared by President 
Clinton. It was to be followed by 17 more for a grand total of 18 
national monuments and 5.6 million acres in the next four years.
    It is possible that the controversy over the secrecy surrounding 
the Grand Staircase Escalante National Monument influenced Secretary of 
Interior Babbitt to give subsequent announcements an aura of process by 
means of informal visits to prospective candidates. Absent statutorial 
requirements, these ``fact-finding'' visits were ad-hoc and minimally 
announced. They were surrounded by headline-grabbing speculation that 
polarized both sides of the issue. Absent an orderly process, both 
opponents and proponents took their case to the press.
CRATERS OF THE MOON
    A series of events preceding the Craters of the Moon National 
Monument Expansion in Idaho exemplifies this ad hoc fact finding. On 
April 18,2000 Secretary Babbitt made a generally unannounced visit to 
the Craters of the Moon National Monument area, with a presumed intent 
to expand the boundaries of the monument. He met on the ground with 
grazing permittees, and with a hastily assembled group (whoever could 
get there with just a few hours notice) at the high school in Arco, 
Idaho. There was no official record made of the proceedings.
    On June 17, 2000, in Twin Falls, Idaho, the Senate Subcommittee on 
Forests and Public Land Management, chaired by Senator Larry Craig, 
held an oversight hearing on the proposed expansion of the Craters of 
the Moon National Monument. This oversight hearing created an official 
record of the proposal, the only existing public record. It was at this 
hearing that issues relevant to the expansion were identified. Among 
them were hunting and trail and road access.
    On June 23, Secretary Babbitt returned to Idaho. A public meeting 
was convened in Rupert, Idaho. With a couple of days advance notice, a 
few more people were able to attend, including Blue Ribbon Executive 
Director Clark Collins.
    Collins took the opportunity to discuss our concerns about roads, 
trails, and access directly with Secretary Babbitt. During that 
conversation, Babbitt promised Collins that he would present language 
to address recreation access concerns in his monument expansion 
proposal to President Clinton. Collins said that he would provide 
Babbitt with language suggestions.
    On June 27, Collins wrote to Secretary Babbitt providing the 
following suggested language for the proclamation addressing roads, 
trails, and access:
        Vehicle travel is limited to existing roads and trails. No 
        special access restrictions will be imposed by this designation 
        pending completion of the following planning process. Local BLM 
        officials will, in cooperation with local motorized 
        recreationists, begin an inventory of roads and trails within 
        the expanded monument. Within three years, the agency will 
        designate, for motorized use, a system of these inventoried 
        roads and trails that perpetuates the area's essential 
        recreational experience. The process will be subject to the 
        National Environmental Policy Act. Off road and trail travel 
        will be prohibited except during hunting season for game 
        retrieval. (See Exhibit 1)
    Collins received no response to this letter in spite of efforts to 
contact Secretary Babbitt. The subsequent monument expansion 
proclamation made no reference to this suggestion.
    Similarly, the hunting access issue was ignored in the 
proclamation. Typically, hunting is not allowed in properties managed 
by the National Park Service. However, it can be accommodated if given 
special exception (a hunting season is allowed by statute in Grand 
Teton National Park).
    Discussions surrounding the Craters of the Moon National Monument 
expansion indicated that the management would be split between the 
Bureau of Land Management (BLM) and the National Park Service (NPS), 
with NPS managing the lava flows and BLM managing the rest. However, 
congressional testimony and comment letters from Idaho Department of 
Fish and Game revealed that there were little pockets of habitat within 
the lavas where deer summered. In order to manage the population and 
continue successful hunts, hunting should be accommodated in these 
areas under NPS jurisdiction.
    The subsequent proclamation did not address this issue, therefore 
hunting is still prohibited within NPS administered areas of the 
monument expansion. In order to correct this deficiency, Congressman 
Mike Simpson has deemed it necessary to introduce separate legislation 
allowing hunting in the NPS portion. It will take an Act of Congress to 
correct what could have been a simple matter had an official process 
been in place.
    Without addressing these two (and perhaps more) critical elements, 
Craters of the Moon National Monument expansion of 661,000 acres was 
declared by President Clinton on November 9, 2000. Total monument 
acreage is now 715,440.
CASCADE-SISKIYOU NATIONAL MONUMENT
    The Cascade-Siskiyou National Monument was declared by President 
Clinton on June 9, 2000. It is located in Jackson County, Oregon on 
Oregon's southern border with California. It consists of 52,987 acres 
of federal land administered by the BLM. There are 32,222 acres of non-
federal land, mostly private property, interspersed among the Monument 
boundaries.
    A BLM National Environmental Policy Act (NEPA) process that would 
have culminated in an Environmental Impact Statement (EIS) and decision 
was well underway when Secretary Babbitt first visited the area on 
October 28, 1999. The EIS was considering how to manage the Cascade 
Siskiyou Ecological Emphasis Area and protect its special features 
while allowing a variety of uses to continue.
    The Ashland (OR) Daily Tidings, on October 28, reported on the 
visit:
        Babbitt, who frequently lines up behind environmentalists on 
        such controversial issues as dam removal, acknowledged that he 
        is not always welcome in the West.
        ``Some people say, `When Bruce Babbitt is in the neighborhood, 
        people better guard their lives, their children, their public 
        land and their future,''' Babbit told a gathered crowd of about 
        20 citizens, government employees, BLM staff and media. ``But I 
        don't have any proposal (for the ecological emphasis area), I 
        just have a lot of questions. I'm on a trip here to have a look 
        at a lot of issues.''
        Citizens on the tour took the opportunity to try to influence 
        Babbitt to support their respective sides...
        Jackson County Commissioner Sue Kupillas said instituting 
        further federal restrictions on public land is not the way to 
        go. She said Oregonians have a reputation of coming up with 
        creative solutions, and should be given the freedom to manage 
        public lands for ecological, social and economic values.
    These kinds of visits exemplify what passed for a public process as 
national monuments were designated by President Clinton. The formal 
NEPA process underway for the Cascade Siskiyou Ecological Emphasis Area 
was trumped by the monument designation.
    Management problems remain as a result. Foremost is the 
intermingling of private and monument property. Within the monument 
area, there are 85,173 acres of land across all ownerships, 52,947 are 
monument property. Some monument parcels are small plots intermingled 
with private lands; some parcels of private land are intermingled with 
monument (see Exhibit 2). Private property owners have been assured 
that monument management policies will not affect them, but that would 
seem difficult when one views a map.
    Federal acquisition of some of this private property is a 
possibility. Some of this acquisition has already taken place. In 1995, 
the BLM purchased the Box O Ranch, consisting of 1200 acres. Scoping 
information published by the agency on the Cascade/Siksiyou Special 
Emphasis Area EIS stated:
        BLM has used the purchase of the privately owned ranch in 1995 
        as an opportunitry to reestablish stream-side vegetation and 
        improve habitat for native rainbow (redband) trout and the 
        dwarf Klamath small-scale sucker. The creek portion of the 
        ranch will be included in the Jenny Creek ACEC.
    When Secretary Babbitt visited the area on October 28, 1999, Dave 
Willis, chair of the Soda Mountain Wilderness Council handed Babbitt 
the deed to 75 acres of formerly private land inside the area. This 
donation augmented the amount of BLM-owned land in the area.
    The mingling of public and private ownership in the Cascade-
Siskiyou National Monument will consume federal and the public's 
attention and resources for some time to come. The abandoned EIS 
process could have sorted this out through an appropriate range of 
alternatives. Now, those options are limited.
    Access and recreation management problems will continue to consume 
resources in this monument. A popular jeep road, the Schoheim Jeep 
Road, was mandated closed to vehicles, even bicycles, as a result of 
the monument declaration (See Exhibit 3). This jeep road, originally 
built in 1964 as a necessary fire access road, had been a subject of 
controversy. The BLM's EIS process was taking all relevant information 
on this popular road into consideration when the monument declaration 
established the closure.
USE OF ANTIQUITIES ACT CHALLENGED IN COURT
    Many have questioned the use of the Antiquities Act to designate 
large scale national monuments of thousands of acres. Section 2 of the 
Antiquities Act, 16 U.S.C. 431, authorizes the President to establish 
as national monuments ``historic landmarks, historic and prehistoric 
structures, and other objects of historic or scientific interest that 
are situated upon the lands owned or controlled by the Government of 
the United States....''
    A reasonable interpretation of this statute is that it is intended 
for discrete features, not whole landscapes.
    Mountain States Legal Foundation and the Utah Association of 
Counties filed suit over the establishment of the Grand Staircase 
Escalante National Monument. That suit is currently working its way 
through the court system. Most recently, groups filed to intervene, 
that intervention was denied at the District Court level. The District 
Court's decision was appealed by the potential intervenors, and the 
decision on that appeal is pending.
    On August 29, 2000, Mountain States Legal Foundation and the 
BlueRibbon Coalition filed suit over the establishment of the Cascade 
Siskiyou, Hanford Reach, Canyon of the Ancients, Grand Canyon-
Parashant, Ironwood, and Sonoran Desert National Monuments. The 
BlueRibbon Coalition, concerned about the application of the 
Antiquities Act, is also concerned about loss of access and recreation 
opportunities. This lawsuit, filed in Washington, D.C., is also 
proceeding through the court system.
    In almost all of the national monuments designated since 1996, 
there have been insufficient inventories of roads, trails, and 
recreation access. Monument status generally means that these 
recreation opportunities will be lost without ever evaluating their 
significance.
LACK OF PROCESS FUELS CONTROVERSY
    As Secretary Babbitt continued to use informal visits to 
investigate potential monuments, controversy increased. He refused to 
provide Congress with a list of federal, state, and private lands being 
considered for national monument designation. On October 19, 1999, a 
press release from Congressman John Shadegg's office stated:
        Secretary Babbitt's refusal came after Congressman John Shadegg 
        (R-AZ) asked if the Secretary would be willing to provide a 
        list of all national monument proposals currently being 
        discussed within the Administration.
        Babbitt's unwillingness to supply the list is of significant 
        concern to Shadegg and the entire Congress. In 1996, when the 
        president designated the Grand Staircase-Escalante National 
        Monument in Utah, the Clinton Administration did so without 
        consulting the Utah congressional delegation, the U.S. Congress 
        or most importantly the people of Utah. The president even 
        denied his intention to declare the area as a national monument 
        in a conversation the night before with the Governor of Utah.
        ``It is precisely this type of arrogant refusal to communicate 
        which makes amending the Antiquities Act of 1906 essential to 
        keeping presidential powers in check. The American people and 
        their congressional representatives should not be left out of 
        land-use decisions which have significant local impact,'' said 
        Shadegg.
    Congressman James Hansen introduced H.R. 1487, quite similar to 
H.R. 2114, in the last Congress. Like H.R. 2114, it would have amended 
the Antiquities Act to require large scale monuments be subject to a 
process before they could be declared. However, the atmosphere for 
reasonable discussion of process was poisoned by speculation over 
designations, the ad-hoc process, the secrecy, and the polarization. 
Frequent headlines in the press took precedence over rational 
consideration of H.R. 1487.
CONCLUSION
    The events surrounding the creation of large-scale national 
monuments since 1996 have revealed the problems that can be created 
when the unilateral declarations are made without process. Management 
problems created by these hasty decisions will consume resources for 
years to come. Congressional action will be required to resolve some of 
these problems, as is exemplified by Congressman Simpson's bill to 
allow hunting in the Craters of the Moon expansion.
    These problems could have been avoided or more easily resolved if a 
process had been in place. H.R. 2114 amends the Antiquities Act to 
establish such a process . Among other features, it requires 
Congressional approval for new national monuments and additions over 
50,000 acres within 2 years of a declaration. It requires that the 
creation of a monument and monument addition over 50,000 acres be first 
submitted to a state's governor and congressional delegation for 
comment, and receive comment from the public. It requires that the 
President consider existing plans and management programs.
    These procedures strengthen the Antiquities Act. They direct the 
discussion over a potential large monument to an established process 
where reasonable dialogue can take place.
    Past events have demonstrated that discussion will take place. We 
have a choice. Will it take place, as in the past, amid headline-
grabbing, speculation, and polarization? H.R. 2114 offers a far better 
option. It assures that the Antiquities Act can be used to set aside 
special places, even on a large scale, but that a legal process will be 
followed that will direct discussion in a productive way.
                                 ______
                                 
    [Attachments to Ms. Cook's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3923.016
    
    [GRAPHIC] [TIFF OMITTED] T3923.017
    
    [GRAPHIC] [TIFF OMITTED] T3923.018
    
    [GRAPHIC] [TIFF OMITTED] T3923.019
    
    Mr. Hefley. Mr. Noel.

    STATEMENT OF MIKE NOEL, CHAIRMAN, KANE COUNTY RESOURCES 
                     DEVELOPMENT COMMITTEE

    Mr. Noel. Thank you, Mr. Chairman. It is a pleasure to be 
here. I sit before you today as the Chairman of the Kane County 
Resource Development Committee. I am currently employed as the 
executive director of the Kane County Water Conservancy 
District. I am also a retired BLM land manager having served 
twenty years in the Kane County area and with my son-in-law I 
ranch and farm and run a herd of commercial cows somewhat like 
Mr. Roosevelt here. However, unlike Mr. Roosevelt, if I went 
back to Kane County and said I was testifying in support of 
Friends of the Earth, the ranchers in the area would rope me 
and drag me through the sage brush. In case you didn't know, 
Friends of the Earth is a radical environmental organization 
that put out a pamphlet asking their members to oil slick the 
cowman's water tanks, to cut our fences, to protest our use of 
the public lands, and to generally wreak havoc on our 
livelihoods.
    I support H.R. 2114. With twenty years of federal land 
management experience, I am here to tell you that we need some 
balance in the Antiquities Act process. In September 1996 
President Clinton designated almost 3000 square miles of land 
in Kane and Garfield counties as needing special protection 
under the Antiquities Act of 1906. In Kane County 96% of the 
land is already federally owned and managed, leaving only 4% in 
private ownership. Trying to live and earn a living on 4% of 
the land in your county is impossible without the cooperation 
of the federal land managers. When this land is taken out of 
multiple use and put in special monument or other designations, 
the private land owner becomes an in holder who must rely on 
the federal government to maintain his access his water rights, 
his grazing rights, etc. to survive. I am in fact one of those 
disenfranchised people the congressman from Connecticut spoke 
about, in fact almost everyone but the federal land managers 
living in Kane County are disenfranchised. There are hundreds 
of private property water rights located inside the Grand 
Staircase. There are vast mineral resources such as coal and 
oil and gas in the monument. There are timber and cattle 
grazing resources. It is in fact impossible to live in a county 
where 96% of the land is controlled by the Federal Government 
without having some kind of balance in the management of that 
land. Monument designations take away that balance.
    When the Federal Land Policy and Management Act (FLPMA) of 
1976 was passed after much debate and compromise in the 
congress of the United States, everyone realized that the 
public lands were different than the parks and national 
monuments. Everyone realized that the public lands were to be 
managed under the philosophy of multiple use and sustained 
yield. There are a myriad of federal environmental protection 
laws that have been passed since the Antiquities Act of 1906. 
These laws such as FLPMA were passed to protect the public 
lands from abuse but to allow for the multiple use of the 
public lands by the general public and more particularly by the 
citizens in the states were the lands occur. The environmental 
organizations would have the public believe that without 
monument designations, their public lands will be bull-dozed, 
drilled, and timbered without any protections what so ever.
    Since 1906 the National Environmental Policy Act, FLPMA, 
the Archaeological Resource Protection Act, the 3809 mining 
regulations, the Visual Resource Management regulations, the 
Wild and Scenic Rivers Act, the Threatened and Endangered 
Species Act, the Riparian and Wetlands Acts, and numerous other 
laws and regulations both on a federal and state level have 
been put into place to ``protect'' the public lands. Kane 
County and other rural counties in the west are inundated by 
hundreds of federal laws and regulations as well as 
governmental policies designed to protect the public lands.
    My county is about the size as the state of Connecticut. 
Can the congressman from Connecticut imagine trying to operate 
his state on 4% of your lands and accomplish any of your 
economic development goals? We are having a difficult time 
making a living there. We need to use the public lands for 
cattle grazing, timber harvesting and mineral extraction in 
order to survive. We can't import gravel from hundreds of miles 
away without a huge costs to our citizens. We need access to 
our private lands and our water rights.
    I noticed while preparing for this testimony and reviewing 
the literature pertinent to the Antiquities Act that many of 
our past Presidents, subsequent to the designations of 
monuments, went back and made changes. Mr. Franklin D. 
Roosevelt made two changes to the Grand Canyon and also to the 
New Mexico Capulin National Monument. Calvin Coolidge, and 
Warren G. Harding and even John F. Kennedy made significant 
changes in national monument boundaries during their 
administrations. The use of the Antiquities Act needs to occur 
in a well thought out process that doesn't allow presidents to 
abuse their authority like Mr. Clinton did. There needs to be 
meaningful input from state government and from the local 
public who have to live in the area and who know the resources 
better than the land managers who for the most part have a 
limited tenure on the lands.
    Prior to my taking an early retirement from the Bureau of 
Land Management, I was the project manager for the Warm Springs 
Environmental Impact Statement. The BLM was evaluating the 
Environmental Impacts of approving an access road to a proposed 
average size coal mine on the Kaiparowits Plateau which is now 
within the boundaries of the Grand Staircase Escalante National 
Monument. We had completed a 6-year EIS process and were ready 
to release the draft EIS to the public when the monument was 
announced by President Clinton. What did the EIS say about the 
impacts to the public lands which would result from the 
development of the coal mine and the access roads (the BLM 
preferred alternative)? The DEIS stated that there would be 
mainly negligible to minor and some moderate impacts to the 
area of the proposed mine and road. This included impacts of 
minor in the short term and negligible in the long term to 
paleontological resources which were one of the primary 
resources the president identified in his proclamation that 
needed protection. Yet the President and Mr. Babbitt who had 
full access to this DEIS information, chose to deceive the 
public by declaring that the coal mine would destroy the area 
knowing full well that a review of the DEIS record would prove 
this to be false.
    I can tell you from a Bureau of Land Management agency 
perspective that the President's statements were totally false. 
There were four government agencies participating in the EIS 
process. The BLM and Office of Surface Mining Reclamation and 
Enforcement were the lead agencies, the National Park Service 
and the Utah Division of Oil Gas and Mining were cooperating 
agencies. In addition a private consulting firm ENSR out of 
Boulder, Colorado was the federally contracted consultants for 
the project. There were over 100 individual reviewers and 
contributors to the DEIS who evaluated the proposed action for 
up to four years. The total new surface impacts as a result of 
the mine were anticipated to be less than 200 acres. This mine 
would have produced millions of tons of coal for our future. 
What did the creation of the monument do? It locked up about a 
half million acres of land that is a known recoverable coal 
resource area. A coal field that contains billions of tons of 
high BTU low sulfur low moisture coal that could be used to 
meet our immediate and future energy requirements with very 
minimal impacts to the environment.
    Locking up these resources is just not acceptable at a time 
when we are dependent on foreign oil supplies for power 
generation. These are just some of the negative impacts that 
result from a President who has been given unilateral authority 
to designate massive tracts of public land as monuments without 
any congressional approval or review, without any local input 
and without any state government input. H. R. 2114 limits the 
Presidents authority to designate up to 50,000 acres or about 
78 square miles of land for protection. This would be totally 
adequate to protect any objects of antiquity that needed 
protection.
    I thank you for the opportunity to testify. This concludes 
my oral testimony but I would like to submit to the committee a 
report prepared by the Kane County Resource Development 
Committee entitled ``Living with the Grand Staircase Escalante 
National Monument, A Report on the Creation, and Implementation 
of the GSENM Management Plan and the Deleterious Effects of the 
Monument on the People of Kane and Garfield Counties and the 
Citizens of the United States of America''.
    Mr. Hefley. Thank you.
    [The prepared statement of Mr. Noel follows:]

     Statement of Michael E. Noel, Chairman, Kane County Resource 
         Development Committee, Kane County, Utah on H.R.  2114

    It is an honor and a privilege to be asked to testify before the 
United States House of Representatives Subcommittee on National Parks, 
Recreation, and Public Lands regarding the ``The National Monument 
Fairness Act of 2001'' (H. R. 2144). I am here today representing the 
Kane County, Utah Resources Development Committee (KCRDC). The KCRDC 
was established by the Kane County Board of Commissioners (KCBC) by 
Ordinance No. 1998-2 on June 22, 1998. The committee acts as an 
advisory committee to the KCBC for the purpose of assisting the board 
in promoting the development of the countys mineral, water, manpower, 
industrial, historical, cultural, timber, and other resources on all 
lands including federal land and state land within Kane County. The 
KCRDC was established pursuant to State Law as prescribed in the Utah 
State Code Sections 17-5-265, 267, 269, 270 and 271. The committee is 
specifically empowered to assist the commission in the proper 
development and utilization of the vast resources of the county which 
occur on private, state controlled, and federally controlled lands. The 
historical planning process for administration of these lands is 
directed by federal and state agencies with the legal requirement that 
the federal agencies will coordinate all land use plans with state and 
county land use plans. Kane County has a detailed and inclusive General 
Plan which identifies among other things the need for economic 
development of the federal and state lands, access across the federal 
and state lands, and the historical sustained multiple use of these 
lands for the economic, recreational, transportation, public purpose, 
cultural customs, and historical needs of the citizens of Kane County.
    The federal government under the direction of the United States 
Congress has a long history of cooperation with the local counties 
wherein they control the management on large tracts of public lands. 
The public use and proper economic development of the federal lands in 
Kane County under a multiple use and sustained yield approach is 
essential to the economic stability of the county. With the creation of 
the Grand Staircase-Escalante National Monument (GSENM) in September of 
1996, over 51% of the land in Kane County and almost 20% of the land in 
adjacent Garfield County was placed in special management categories 
that severely limit economic development in the counties. As result of 
this action the citizens of Kane and Garfield county have suffered 
economically. The size of the monument designation is staggering when 
compared to other national parks in the lower 48. It is 52 times larger 
than Bryce Canyon National Park, and 13 times larger than Zion National 
Park. It is one third larger than the entire Glen Canyon National 
Recreation Area including Lake Powell which contains over 2000 miles of 
shoreline. It is in fact 500 square miles larger than the entire state 
of Delaware. For the president to act unilaterally to set aside this 
vast area of public land without so much as a notification of the 
Governor of the State, the Congressional Delegation, county government 
or the local citizens can only be viewed as an irresponsible act taken 
for political purposes to evade the provisions of the National 
Environmental Policy Act (NEPA) and to overcome Congressional 
involvement.
    The KCRDC and the Citizens of Kane County have been closely 
following the progress of the United States House of Representatives 
Committee on Resources and the House Subcommittee on National Parks, 
Recreation, and Public Lands, who early on recognized the illegal 
nature of the creation of the GSENM. We have appreciated the work that 
the committee has done to try and rectify this misuse of power and to 
put into place a process that will insure that this type of unilateral 
decision by the executive branch of government will not occur in the 
future. In the interim, the KCRDC is hopeful that the United States 
Congress can find ways to mitigate the damage done to the local 
economies of Kane and Garfield Counties as a result of these massive 
restrictive land designations. H. R. 2114 is a step in the right 
direction to modify and update the 95 year old Antiquities Act to meet 
the needs of the American public in 2001.
    Over the past six months, the KCRDC worked diligently to prepare a 
report entitled ``Living With the Grand Staircase-Escalante National 
Monument, AA Report on the Creation, Management, Implementation, and 
Deleterious Effects of the Monument on the People of Kane and Garfield 
Counties and the Citizens of the United States of America''. The report 
was written to provide information that can be used in determining what 
immediate actions can be taken to relieve the burden of the monument 
creation on the citizens of Kane and Garfield Counties. In addition, 
the KCRDC feels that the report will provide meaningful information to 
the Subcommittee and to the United States House of Representatives to 
enable them to see the effects of special management designations on 
large tracts of public lands in rural America without local and State 
input and without the ratification of the U. S. Congress who has the 
ultimate responsibility for the management and disposition of all the 
public lands. The following is a brief summary of the subject 95 page 
report:
    Kane County and Garfield Counties have suffered at the hands of the 
biocentric radical environmental movement in the past through the loss 
of the many major economic resource based employers beginning in 1991 
with the initial downsizing of Kaibab Industries Lumber Mill. The final 
closing of the Kaibab Lumber Mill operation in 1996 resulted in the 
total loss of 273 jobs and a forecast out-migration of 470 persons from 
Kane County. Additional jobs were lost in Garfield County. The average 
of the jobs lost had a median income of more than double the median 
income of the remaining workforce. When the new Grand Staircase/
Escalante National Monument was designated by Executive Order by 
President Clinton, the federal government gave the impression that the 
new Monument would be a major contributor to Kane County's economy even 
though traditionally such monument designations follow their mandate of 
restrictive preservation of the resources with little significant 
contributions to the economic base of the surrounding communities. 
Sadly, after five years of living with the monument, the economic 
conditions in Kane and Garfield are worse than ever. Promises of 
increased tourism and additional business opportunities have not 
materialized. In addition, the increased federal presence and the 
restrictive Monument Plan have created a divisive community.
    Transportation: Over the past five years, the Clinton, Gore, 
Babbitt Administration, acting in advocacy for an extreme environmental 
philosophy, ignored existing law and congressional mandate by using 
unilateral administrative fiat to usurp valid existing rights (RS 2477 
rights-of-way) in an effort to effect complete control and authority 
over transportation and access within the Monument. The Monument Plan 
fails to recognize both the rights and importance of a viable 
transportation system to Kane County and its residents who rely on 
natural resource utilization on public lands for economic stability.
    Livestock Grazing: The GSENM Plan is a carefully crafted document 
that was produced with a total disregard for the Kane County General 
Land Use Plan and existing federal and state law. The plan has the 
potential to eliminate sustained yield and multiple-use of the public 
lands within the Monument specifically centering on cattle grazing. The 
Monument Plan states that the evaluation of grazing will be consistent 
with all applicable legal authorities, including the Federal Land 
Policy and Management Act (FLPMA), the Taylor Grazing Act (TGA), the 
Public Rangelands Improvement Act (PRIA)...etc. (Page 41, GSENM Plan). 
The plan and the ``Professionals'' that wrote the plan ignored federal 
and state law and put in place a document that can be utilized to 
remove cattle from the public lands within the monument. The plan 
changes the existing rules and regulations that were in place to manage 
livestock on the public lands and supplants them with the BLM produced 
``Standards for Rangeland Health and Guidelines for Grazing 
Management.'' The GSENM Management Plan is contradictory to the Kane 
County General Plan in several areas regarding livestock management and 
use of the public lands.
    Kane County is an area larger in land mass that the state of 
Connecticut, however, unlike Connecticut, 90% of the land is controlled 
by the federal government. Only 4.4% of the entire land mass in Kane 
County is in private hands. Residents must utilize the natural 
resources and public lands to sustain their families. The battle over 
public land use and access has been ongoing for decades. Severe 
livestock grazing reductions, restrictive regulations, and access to 
the land are at the forefront of the current battle. Since September 
2000, there have been two notices of allotment closures posted at the 
Kane County Courthouse. Although, BLM states that it will furnish a 
copy of the regulations and a detailed map of the closed areas, 
citizens have been denied the document by the BLM. These closures are 
unreasonable, impractical and not science-based closures. This action 
by monument management was arbitrary and capricious and fails to meet 
federal requirements regarding consultation, negotiations, and 
reasonable multiple use and range improvement mandates. It also 
violates the pledge in the Presidential Proclamation establishing the 
monument subject to valid existing rights which include but are not 
limited to livestock grazing preference rights on federal lands.
    As Paul Jenkins (retired BLM range manager) representing the Kane 
County Cattlemen's Association stated at a Congressional hearing in 
1979, ``What is this desperate need, and what is so great about an 
unused and wasted resource--what is this grave fondness for non-
productivity? If locking up our resources is the answer to this 
nation's problems, then the federal government should take immediate 
steps to acquire 65% of the lands in all the 50 states. If the 
government can best manage forest and range land, they can surely do a 
better job than the Iowa corn grower or the Georgia peanut farmer. 
Further, think of the improvement and disbursement of the aesthetic 
venture if every state would contribute 6 or 7 million acres to 
wilderness.''
    Water Resources: Perhaps the greatest threat to the use and 
enjoyment of private land in Kane County is the effects of the GSENM on 
private water rights. Although water rights are adjudicated by the 
State of Utah and are the private property rights of the citizens of 
Kane County, the Grand Staircase Monument Plan greatly impacts private 
water rights on private property within the boundaries of the monument 
and on private property situated adjacent to the monument. There are 
approximately 1400 points of diversion for water rights within the 
monument. About half are in the name of the Bureau of Land Management 
and the other half are recorded in the name of the private or state 
water right owner. Those diversions which are in the name of the BLM 
are in fact rights connected to cattle grazing permittees and would not 
have been adjudicated in the name of the federal government without the 
private cattle permittee=s showing of beneficial use. The other 700 or 
so water rights are connected to private land parcels within the 
Monument boundaries. In addition those parcels of private land lying 
adjacent to the monument, in many cases, derive their water from the 
watershed areas inside the monument. It is estimated that an additional 
700 to 1000 private water rights were impacted by the monument 
designation. This would mean that more that 2000 private water rights 
in Kane County alone were negatively impacted by the creation of the 
GSENM and the implementation of the monument plan. Although there was a 
vigorous appeal of the language in the Monument Plan regarding water 
resources, the monument planners totally ignored public input, the Kane 
County Water Conservancy District input, and the Utah State Engineer=s 
input to the Monument Plan regarding the use and development of private 
water rights in the monument.
    The information regarding water rights as recorded in the Monument 
Plan conflicts with Utah state law. The plan states that: ``In general, 
diversions of water out of the Monument will not be permitted.'' The 
plan does allow for some exceptions for ``community culinary water if 
the applicant can demonstrate that the diversion of water will not 
damage water resources within the Monument or conflict with the 
objectives of the plan...'' The ability for a public utility to meet 
the criteria for moving private water rights off the monument is 
severely limited by the plan. This would be the case even if the 
applicant has the legal l water rights to a particular surface flow or 
underground aquifer flow. The federal government could protest the 
action and go to court to stop water development. This is simply a 
takings of private water rights without compensation. There were no 
federal reserve water rights created as a result of the presidential 
proclamation, but that did not stop the federal planners from 
restricting the use and development of private water rights in the 
Monument Plan. Wild and Scenic Rivers recommendations were also 
included in the plan with over 252 miles recommended. If these 
designations are approved this could add additional restrictive 
management to another 80,060 acres which will further impact private 
and federal grazing water rights as well as access, recreational use, 
and cattle grazing. It is apparent, that the Monument Plan is the 
document that will be used to stop the private use of valid existing 
private water rights and to impede any type of water right development 
in Kane County.
    Minerals: A Utah State Geological Society report describe perhaps 
the most controversial debates regarding the creation of the Monument. 
These are the unresolved issues with the vast mineral values and 
mineral potential within the boundaries of the Monument. In January of 
1997 M. Lee Allison, Utah State Geologist for the Utah Geological 
Society produced Circular 93, ``A Preliminary Assessment of Energy and 
Mineral Resources with the Grand Staircase-Escalante National 
Monument.'' Although the BLM Division of Minerals were aware of the 
extensive mineral reserves in the monument, it is unfortunate that this 
report could not have been made public prior to the designation. The 
lock up of literally billions of tons of energy minerals and strategic 
minerals at a time when the United States is facing an energy crisis is 
malfeasance. The report states in the summary section that ``the value 
of known and potential and energy mineral resources in the GSENM at 
1997 prices is between $223 billion and $330 billion dollars'' (this 
value would now be higher due to domestic energy shortages). This 
figure does not include any additional value for tar sands, carbon 
dioxide reserves, or any other mineral deposits such as titanium, 
uranium, or copper. The report goes on to state that the 1.9 million 
monument acres in Kane and Garfield counties includes some of the most 
energy-rich lands in the lower 48 states. The Utah School and 
Institutional Trust Lands at one time held over 200,000 acres of 
mineral rights in the monument. After the Monument designation, 
President Clinton directed the Secretary of Interior to trade these 
lands for other federal lands or resources in Utah that are of 
comparable value. The State has since traded these lands for money and 
mineral rights in other locations. Circular 93 was created for the 
purpose of assessing and evaluating the mineral resources in the 
monument, to qualitatively describe the resource potential for each 
known commodity, and to propose plans to better assess the potential 
values in order to help assure that Utah's school children receive fair 
and just compensation.
    The Monument Plan specifically withdrew all of the Federal lands 
and interests in lands within the Monument from entry, location, 
selection, sale leasing, or other disposition under the public land 
laws, including the mineral leasing and mining laws. Thus no new 
Federal mineral leases or prospecting permits may be issued, nor may 
new mining claims be located within the Monument. Authorization for 
activities on existing mineral leases and mining claims, according to 
the Proclamation will be governed by Valid Existing Rights. Within the 
monument there are currently 68 Federal mining claims covering 
approximately 2,700 acres, 85 Federal oil and gas leases encompassing 
more than 136,000 acres, and 18 Federal coal leases on about 52,800 
acres (GSENM Plan page 51). It is interesting to note that these 
191,000 acres of land is only 1% of the entire 1.9 million acre 
Monument. The obvious question is why did the Clinton-Gore-Babbitt 
administration act to lock up 1.9 million acres of federal land under 
the Antiquities Act that was supposedly threatened by development when 
only 1% of the land was under mineral lease?
    Recreation and Tourism: Gary Nicholes a professional recreation 
specialist has worked as a consultant for the BLM the National Park 
Service, the United States Forest Service and the State of Utah over a 
period of 25 years. He calls the creation of the Monument a 
``Politically Motivated Action'' and describes how the proposed 
resource plan or management policy for the new recreation resource was 
initiated by special interests or political appointees to meet specific 
opportunistic purposes. As a result, Nicholes concludes that the 
Monument plan doesn't meet the broader concern of local economies or 
preferred recreation user groups. ``While the GSENM has some unique 
dispersed characteristics located within its boundaries its special 
environment is common in its entirety for such a large national 
monument designation. The present GSENM's Administrative Plan doesn't 
replace the economic value or quality of life it extracts from local 
communities by severely restricting regional travel and recreation 
experiences within its boundaries.
    Creation of the Monument-Legal Analysis: This section of the report 
is a legal analysis of the creation of the Monument. It outlines the 
process by which the Clinton Babbitt administration illegally made the 
designation and the reasons why it is contrary to law. In order to be 
both legal and legitimately accepted, President Clinton's Proclamation 
designating the GSENM must have met the following criteria as 
identified in the 1906 Antiquities Act: (1). The use of the Antiquities 
Act must originate with the President. (2). The Antiquities Act can 
only protect objects of historic and scientific interest. (3). The 
objects of historic and scientific interest must be endangered. (4). 
Land reserved under the Antiquities Act ``in all cases shall be 
confined to the smallest area'' necessary to manage the protected 
objects.
    President Clinton did not initiate the GSENM inquiry, however, a 
fake paper trail was established to make it appear that he did. The 
Department of Interior initiated the process in order to exclude 
Congress and the American public from participating in this decision as 
required by the Federal Land Policy Management Act (FLPMA), the 
National Environmental Protection Act (NEPA), the Administrative 
Procedures Act (APA) and other laws. The GSENM Proclamation eliminates 
almost two million acres of land from multiple use and sustained yield 
and was driven by an extreme environmental philosophy related to 
expanding wilderness status and for political reasons rather than 
protecting endangered objects. The Babbitt administration clearly knew 
that no objects of historic or scientific interest were endangered.
    The nearly two million acres within the GSENM and the lack of 
endangered objects of historic and scientific interest combine to 
violate the smallest area test. The GSENM Monument is equal in size to 
a one and one-half mile wide parcel of land stretching from San 
Francisco to New York City and far exceeds the intent and authority 
delegated to the President under the Antiquities Act. The legality of 
the Monument designation aside, the Monument boundary and the GSENM 
Management Plan also exceed authority provided in either the 
Antiquities Act Proclamation or FLPMA, the BLM's organic act. The 
entire Management Plan, including the Monument boundary, requires 
extensive revision in order to meet lawful compliance with the 
Antiquities Act, FLPMA, NEPA, APA, Taylor Grazing Act, the Public Range 
Lands Improvement Act and others. The public, the economic needs of 
local communities, private property interests and valid existing rights 
need to be considered in planning revisions, in a meaningful way, as 
that has not happened regarding the Monument planning process to date. 
The use of the Antiquities Act in evading public participation and 
Congressional involvement creates concern beyond a legal argument. It 
raises questions regarding the nobility of the entire designation 
process.
    The Monument Plan Locks the American People out of their Land: 
Although Bill Clinton promised on September 19th, 2001 that valid 
existing rights would be protected and that the creation of the 
Monument would somehow preserve the land for the American people and 
provide a place where they could enjoy solitude and the peace of 
nature, this was in fact a lie. The reality at that time was that the 
subject 1.9 million acre land area was already accessible and available 
for use by the American public and the reality today is that the 
creation of Monument and the resulting Monument plan greatly restricts 
the access and multiple use of these public lands for recreation and 
solitude. With the GSENM Plan in place only about 6% of the entire 
Monument (Frontcountry Zone and Passage Zone) will be readily 
accessible by the vast majority of American taxpayers. The GSENM Plan 
totally restricts vehicle or any kind of mechanical access to over 65% 
of the Monument. Because of the rugged and remote character of the 
Monument, only the most hardy and probably because of the limitations 
most Americans have on their time due to the need to make a living and 
support their families, only the most affluent in the society will ever 
be able to visit this area. In other words how many Americans have the 
financial capability to back pack into a remote area for two to three 
weeks at a time, and that is assuming that you can even get the BLM to 
issue you a camping permit. Prior to the creation of the Monument 
camping, hunting, backpacking, four-wheeling, wood cutting was readily 
available on these lands with little or no restrictions.
    Conclusions: One of the major objectives of the KCRDC report was to 
motivate those in ``political power'' positions on the federal, state 
and local levels to seriously consider and actively seek solutions to 
the regional problems generated by the monument's designation. Local 
residents and local elected officials feel that the problems created by 
the monument designation are not fully understood by those who reside 
outside of the affected region. BLM monument planners touted the 
benefits of the plan to the tourist economy. The monument was supposed 
increase recreational and tourist activity in the county which would 
compensate for the loss of resource based employment. However, it is 
readily apparent from a review of the monument plan that little 
opportunity will be offered to local economies to seek a mix of travel 
and recreation resources within the monument. When attractions and 
activities are restricted in the monument plan as they are, this action 
severely limits investment capital and planning flexibility to 
establish a variety of successful business opportunities for those 
living in local communities.
    The only Kane County residents that seem to be benefitting 
economically from the monument are the highly paid GS-12's, 13's, 14's 
and GS 15 GSENM employees and the management team which were hand 
picked by the Babbitt administration to move into the area. Very few 
positions went to the local populace. The American taxpayer is getting 
fleeced twice on this illegal action. First he was told that the lands 
were set aside for present and future generations to use and enjoy 
which after reading the KRDC report one will discover was a deception 
to garner support from the American public. The land if kept in 
monument status, will only be available for federal bureaucrats, 
researchers, and a few elite individuals who are able to spend weeks 
hiking and traveling on foot with the proper permits. Second the 
taxpayer gets to foot the bill for the 1000% increase in budget to 
``manage'' the lands with 5 times the number of highly paid federal 
employees (from 20 to over 109 not including summer hires which brings 
to total to close to 120). At a time when the average Kane County 
family is bringing home less than $28,000 in annual wages the 
designation and over staffing of the monument by the federal government 
has created a new privileged class of citizen in the county i.e. the 
federal bureaucrat.
    H.R. 2114 is just the type of legislation that is needed to prevent 
the kind of problems that have resulted from the creation of the GSENM. 
If the legislation is passed, the President would still be free to 
designate 50,000 acres of public land as a National Monument without 
congressional approval. This is more than 78 square miles of land and 
would be more than adequate to protect historic landmarks, historic and 
prehistoric structures, and other objects of historic or scientific 
interest. Having worked in federal land management for over 21 years I 
can testify that the federal and state laws and regulations that have 
been passed and implemented since 1906 are entirely adequate to protect 
the values identified in the Antiquities Act. We have come a long way 
in environmental protection since 1906 and we also have improved 
technology that allows us to develop resources and still protect the 
environment.
    It is ludicrous to lock up our natural resources and energy 
supplies and then send our sons and daughters to Kuwait to protect the 
energy resources of a foreign country. My own son came in harms way as 
he served as an officer in the Desert Storm conflict. I don't want to 
see him or my grandsons obligated to fight for foreign oil or strategic 
minerals when they are readily available in this country. Wouldn't it 
be better to develop our own natural resources in an environmentally 
responsible manner rather shift our energy burden to other countries? 
Rural America is where the products are produced and where the energy 
supplies are located. Behind every light switch is a coal miner, in 
every loaf of bread and in every hamburger is the hard work of a rural 
farmer or rancher. We should continue to look at ways to become energy 
self-sufficient. Let's approach life with the attitude that there are 
an abundance resources and opportunities. To lock down and lock out the 
public from the public lands to supposedly ``protect it'' from 
ourselves is contrary to the wise and conservative use of our available 
resources. The vast majority of these resources are renewable. The coal 
energy of the Kaiparowits and other areas is our stepping stone to the 
future of a yet to be discovered renewable energy supply. We can buy 
hundreds of years of research time with clean coal energy while the 
best minds work to develop alternative sources of renewable energy or 
we can lock ourselves and our children out of these resources and 
continue to depend on an ever decreasing supply of foreign oil.
    Thank you again for the opportunity to testify on this important 
legislation.
                                 ______
                                 
    Mr. Hefley. Mr. Roosevelt.

     STATEMENT OF THEODORE ROOSEVELT, IV, BUSINESSMAN AND 
                 CONSERVATIONIST FROM NEW YORK

    Mr. Roosevelt. Mr. Chairman and members of the 
Subcommittee, thank you very much for allowing me to testify. I 
am delighted to be here today in my capacity as a member of the 
Governing Council of the Wilderness Society and other 
environmental organizations. I dare say it will not come as a 
surprise to you when you know that I am going to strenuously 
oppose 2114 on behalf of these organizations. It won't come as 
a surprise to me if I am subjected to a fair amount of sharp 
questioning on your part. I do hope that you won't consider me 
to be dictatorial or unAmerican in the views that I have.
    The timing I think is particularly good for this, from my 
perspective. I just returned from a trip to Montana, where I 
spent 10 days on my ranch. Like most ranchers I spent most of 
my time worrying about fences, rain, grass and cattle. But I 
also gave a lot of thought to western land issues, especially 
in the wake of the Time Magazine article, ``War on the West.'' 
this, as you probably know, is the third time in less than 5 
years I have testified before this Committee and Committees in 
the Senate on the Antiquities Act. But I do hope that 1 day 
Congress will recognize that the Act itself is a monument to 
our national conscience.
    I believe that H.R. 2114 seeks to emasculate the 
Antiquities Act by limiting the size of national monuments that 
can be designated by the President to 50,000 acres or less.
    If T. R. were president today, he would be unable to 
designate Grand Canyon National Monument. In his time, that 
action was exceedingly controversial as were some of the recent 
proclamations that we have heard about today. Rather than 
reading from my written transcript, I would like to share with 
you some of my thoughts about the conflict in the west over 
public lands, and I am going to depart a little bit from my 
written testimony, which you can read.
    It is my belief that the conflict over the western public 
lands which fuels this attack on that has served our country 
well. The Antiquities Act has, in fact, become a focal point 
for old controversy. Should Federal lands be managed for 
national values or local interests? Is there a strategy for 
management that can accommodate both? There are some in the 
west who claim we have moved away from a multiple use strategy 
to a ``no use strategy.'' I disagree, and I will try to explain 
why.
    We are also failing to realize the full range of what 
multiple use encompasses. National Forests, for example, 
protect clean water. In California, 50 percent of the drinking 
water originates on National Forests. In T. R.'s time, we did 
not have the science which we do today to help us understand 
what is involved in maintaining healthy ecosystems. Today's 
science clearly tells us that keeping larger tracts of land 
intact is the best way in maintaining the health and resilience 
of ecosystems as a whole.
    Most Americans view our public lands as bastions in our 
conservation efforts. In reality, lands protected in 
conservation areas, which I will characterize as wilderness 
areas, wildlife refugees, national parks and private nature 
reserves, are far from excessive. They account for about 5 
percent of the U.S. land area excluding Alaska.
    Open space initiatives throughout the country are on the 
rise and embraced enthusiastically by the American people. The 
phenomenon which I am sure that all of you are familiar with, 
and this probably comes from the fact that in the L.A. Times 
poll, they discovered that a large majority of Americans 
expressed a sense of ownership of Federal lands. A walloping 61 
percent felt that the Federal Government should consider the 
views of all Americans when setting environmental policy on 
those lands.
    Now, I recognize that the issue is somewhat more 
complicated, and I have learned a great deal on that score from 
my service on the board of the University of Wyoming's 
Institute for the Environment of National Resources. A close 
friend of mine, Dan Kemis, who also serves on that board and 
was the former mayor of Missoula, Montana. Dan has written an 
extraordinarily interesting essay entitled ``Rethinking Public 
Land Governance for the New Century,'' which will be published 
this fall. He points out rightfully, in my opinion, the 
resentment toward and resistance to the national presence has 
had a long history in the west. He cites in his essay the 
insensitivity of the national government toward issues that 
fuel Western anger. He points to the extraordinary success of 
some of the local collaborative conservation efforts, the Nalpi 
Borderlands Group may be the most famous of these. The 
Antiquities Act, however, is the wrong target for addressing 
the west's anger. Dan Kemis frames the problem, in my opinion, 
very aptly in his essay, and I would like to read a some what 
long quote from it.
    It is impossible to imagine environmentalists or other 
progressives trusting westerners to run the west unless they 
could be shown how western control of the land is not just a 
cover for corporate greed. This is from the former mayor of 
Missoula. Democrats, in other words, will not and should not 
abandon their undemocratic attitude toward the west until 
conservatives agree to abandon their own anti-conservative 
approaches to western issues.
    A few responsible western Republicans are beginning to 
recognize that the pursuit of quick profit at the expense of 
sustainable ecosystems and sustainable communities does not 
conserve anything. I believe that if we took conservation 
issues as much to heart as the American people do, we could 
find solutions to land management in the west and elsewhere who 
would work effectively on local, regional and continental 
scales.
    The Antiquities Act, however, does not deserve to be the 
battleground of what Time Magazine calls the ``War Over the 
West.'' neither should conservation. We should both--we should 
be on the same side here, which is the side of the American 
people. And in the end, I truly believe no one will lose 
including local communities or future generations.
    [The prepared statement of Mr. Roosevelt follows:]

   Statement of Theodore Roosevelt IV, on behalf of American Lands, 
  American Rivers, Defenders of Wildlife, Earthjustice Legal Defense 
Fund, Friends of the Earth, Grand Canyon Trust, League of Conservation 
   Voters, Marine Conservation Biology Institute, National Hispanic 
    Environmental Council, National Parks Conservation Association, 
  National Trust for Historic Preservation, Natural Resources Defense 
Council, Preservation Action, Republicans for Environmental Protection, 
Scenic America, Sierra Club, Southern Utah Wilderness Association, The 
          Ocean Conservancy, The Wilderness Society, U.S. PIRG

    Mr. Chairman and members of the Subcommittee, I am Ted Roosevelt 
IV, a businessman, conservationist, and a rancher. I am also Republican 
and a great grandson of President Theodore Roosevelt, who signed the 
Antiquities Act of 1906 into law and proclaimed the first national 
monuments under it. I am honored to be here today in my capacity as a 
member of. the Governing Council of The Wilderness Society and to 
represent the twenty organizations listed above. We are strenuously 
opposed to enactment of H.R. 2114, the ``National Monument Fairness Act 
of 2001.''
    This is the third time that I have testified before House and 
Senate Committees in defense of the Antiquities Act. It is my hope 
that, eventually, these challenges to the Act will be simply a matter 
for the history books and that Congress will come to recognize that the 
Act itself is a monument to our national conscience.
    Our national identity is not solely defined by the success of our 
economic enterprise, and the American people repeatedly and 
resoundingly confirm to their representatives in Congress that the 
health, integrity, and beauty of our landscape is an absolute value of 
national importance to them. As one serviceman of my acquaintance put 
it: ``I may not have the privilege of living in God's country, but I 
had the privilege of fighting for it. That is the landscape upon which 
I fixed my heart and hopes.'' And it is that signature landscape, so 
beloved by the American people, that the Antiquities Act has helped us 
to preserve, including: the Grand Canyon, Arizona's Petrified Forest, 
Mount Olympus in Washington, Zion National Park in Utah, Yukon Flats in 
Alaska, Death Valley in California--to name just a few of the national 
monuments that exceeded 50,000 acres.
    H.R. 2114 seeks to limit the size of national monuments that can be 
designated without congressional approval to 50,000 acres or less; it 
seeks, therefore, to preclude future presidents from acting as Theodore 
Roosevelt once did when he designated 808,120 acres in northern Arizona 
as the Grand Canyon National Monument. On that occasion, he said of the 
Canyon, ``Leave it as it is. You cannot improve upon it; not a bit. 
What you can do is to keep it for your children, your children's 
children, and for all who come after you.'' These are sentiments to 
which the vast majority of Americans ascribe. In fact, we overlook at 
our peril the essentially grassroots nature of American conservation. 
The Antiquities Act itself was a response in the late 19th century to a 
national, popular outcry against the vandalism and looting occurring on 
national landmarks. And throughout the service of 13 presidents of both 
political parties, the Antiquities Act has been an invaluable tool in 
preserving what the American people clearly saw as requiring swift and 
special protection.
    The Antiquities Act is not unlike other powers that Congress has 
given to the president to forestall swiftly a threat that Congress 
cannot address in a timely or decisive fashion. The Act represents a 
true balance of powers between the President and the Congress. It 
confers only the power to reserve public lands from specific uses that 
threaten these lands' special qualities. Congress retains all other 
powers over any presidentially proclaimed national monument. Congress 
may set the terms and conditions of a monument's management, as this 
Committee has recently seen fit to do in H.R. 601, which clarified the 
status and management prescriptions of the Craters of the Moon National 
Monument in Idaho, as expanded by President Clinton. Congress may 
determine its funding, as it has done with the Grand Staircase-
Escalante National Monument, despite continuing local controversy. 
Congress may alter the boundaries of national monuments, again as it 
did in 1998 with the Grand Staircase-Escalante National Monument. It 
may even decide to abolish a national monument, an action some Members 
of this Committee may be contemplating with respect to one or more of 
our newest national monuments, but an action which, I venture to say, 
will find little support with the American people.
    President Clinton's proclamation of the Grand Staircase-Escalante 
National Monument in Utah, and the subsequent national monument 
proclamations that followed, kindled the fierce reaction among those 
who have sponsored legislation to change radically this time-tested 
law. Based on this action, sponsors of H.R. 2114 apparently believe 
that presidents have abused the Act and that it needs major surgery. 
But a close examination of each of President Clinton's proclamations 
reveals the careful rationale used to protect our nation's newest crown 
jewels. For example:
Cascade-Siskiyou National Monument, Oregon:
    With towering fir forests, sunlit oak groves, wildflower-strewn 
meadows, and steep canyons, the Cascade-Siskiyou National Monument is 
an ecological wonder, with biological diversity unmatched in the 
Cascade Range. This rich enclave of natural resources is at a 
biological crossroads--the interface of the Cascade, Klamath, and 
Siskiyou ecoregions, in an area of unique geology biology, climate, and 
topography.... The monument is home to a spectacular variety of rare 
and beautiful species of plants and animals, whose survival in this 
region depends upon its continued ecological integrity....
Grand Canyon-Parashant National Monument, Arizona:
    The Grand Canyon-Parashant National Monument is a vast, 
biologically diverse, impressive landscape encompassing an array of 
scientific and historic objects. This remote area of open, undeveloped 
spaces and engaging scenery is located on the edge of one of the most 
beautiful places on earth, the Grand Canyon. Despite the hardships 
created by rugged isolation and the lack of natural waters, the 
monument has a long and rich human history spanning more than 11,000 
years, and an equally rich geologic history spanning almost 2 billion 
years. Full of natural splendor and solitude, this area remains remote 
and unspoiled, qualities that are essential to the protection of the 
scientific and historic resources it contains.
Ironwood Forest National Monument, Arizona:
    The monument contains objects of scientific interest throughout its 
desert environment. Stands of ironwood, palo verde, and saguaro blanket 
the monument floor beneath the rugged mountain ranges, including the 
Silver Bell Mountains. Ragged Top Mountain is a biological and 
geological crown jewel amid the depositional plains in the monument. 
The monument presents a quintessential view of the Sonoran Desert with 
ancient legume and cactus forests. The geologic and topographic 
variability of the monument contributes to the area's high biological 
diversity. In addition to the biological and geological resources, the 
area holds abundant rock art sites and other archeological objects of 
scientific interest. Humans have inhabited the area for more than 5,000 
years. More than 200 sites from the prehistoric Hohokam period (600 
A.D. to 1450 A.D.) have been recorded in the area.
Upper Missouri Breaks National Monument, Montana:
    The Upper Missouri River Breaks National Monument contains a 
spectacular array of biological, geological, and historical objects of 
interest. The area has remained largely unchanged in the nearly 200 
years since Meriwether Lewis and William Clark traveled through it on 
their epic journey. ..
    Some claim that more recent federal laws, particularly the National 
Environmental Protection Act (NEPA) and the Federal Land Policy and 
Management Act (FLPMA) render the Antiquities Act obsolete. This is not 
true. NEPA is an analytical tool that establishes a public involvement 
process and has no special authority to protect unique federal lands. 
FLPMA does not assure long term protection under its emergency powers 
and has no authority for National Park Service management of those 
national monuments designated for Park Service stewardship. The 
Antiquities Act remains an important tool for protection of federal 
lands held in trust for all Americans, not just the residents in a 
particular state.
    In conclusion, the Antiquities Act is a distinctly American law, 
designed by your far-sighted predecessors to assure that we do not 
damage those natural, archeological, and cultural treasures unique to 
our American landscape. Since its passage in 1906, it has served our 
nation well, ensuring that presidents have the ability to protect 
fragile and special places from ill-conceived commercial exploitation 
with the speed not found in the ordinary legislative process. 
Presidents have used the Act sparingly and appropriately to respond to 
public concerns about the preservation of places that are keystones to 
our national memory and that help define us as a people and a nation. 
We respectfully urge your opposition to H.R. 2114.
                                 ______
                                 
    Mr. Hefley. Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I want to 
welcome our panelists and particularly welcome you, Mr. 
Roosevelt. I guess I would have one question. In the previous 
Congress, on a bipartisan agreement had been reached between 
our current--the Chairman of the Resources Committee, now Mr. 
Hansen, and Mr. Vento, and that amendment provided for public 
participation and comment as well as consultation on the 
proposed monument designation for consideration by the 
President of any information made available in the development 
of existing plans and programs for the management of the lands 
and it made it clear that NEPA applied to any management plan 
developed subsequent to the declaration. Would this not 
accomplish all that we are trying to--that we want to 
accomplish with regard to the designation of monuments?
    Mr. Roosevelt. Mrs. Christensen, I think you raise a very 
good question. On balance, I think I and most of the 
environmental movement would endorse increased coordination, 
increased collaboration. Our biggest concern is the provision 
of 50,000 acres. And I think if you can see within reason 
increased cooperation between the local regions and they have 
to have an input, but I don't think we want to see where they 
have a majority. But reasonable coordination, reasonable input, 
absolutely.
    Mrs. Christensen. Thank you. Would anyone else--.
    Mr. Noel. I would like to comment on that. Yes NEPA is very 
important in considering whether to establish a National 
Monument. NEPA will allow for the review of social economic 
impacts to local communities. In fact, as was noted here, after 
the uproar caused by the creation of the GSENM, Secretary 
Babbitt had Interior put together a report on other potential 
monument designations. The administration asked for public 
comments and held public meetings before proceeding with the 
creation of any of the subsequent monuments. So I believe that 
requiring NEPA analysis is not a problem and should in fact be 
a part of the process. Why would an environmentally friendly 
administration not want to complete a NEPA analysis? I would 
also like to comment on a point that Mr. Roosevelt made 
regarding water conservation being important and on watersheds. 
We know that it is very important and that the public lands are 
the watershed areas for our communities. A great deal of our 
water in Kane County is collected in the Grand Staircase 
Escalante National Monument and stored in the Navajo Sandstone 
Aquifer. With only 4% of the land in Kane County in private 
ownership we are totally dependent on a protected watershed on 
public lands. Unfortunately, the GSENM plan does not allow for 
the transfer of private water rights off the monument even 
though state law allows us that right. There were no Federal 
Reserved Water Rights designated in the proclamation, yet 
private citizens can't even take their privately held water 
rights off the monument.
    It is interesting as some here have talked about the polls 
that show that the American Public wants more land set aside 
for recreation and public use. The environmental organizations 
use the poles to push for monument designations, and wilderness 
designations. What they don't tell the public however is that 
these lands are already open to public use and enjoyment and 
the various designations do nothing more than to lock out the 
majority of American Citizens. This is the great myth 
perpetrated by the greens, that we are saving the land for your 
children, when in fact your children will never get to see the 
vast majority of the public lands in the monuments because of 
the closing of access, the extensive permitting process and the 
management closure of the vast majority of the designated land. 
Under the previous management of these lands under FLPMA, the 
public could use the public lands for recreation and tourism 
and the local resident populations could use the public lands 
on a multiple use sustained yield basis. Now, under the GSENM 
Plan if you have more than 12 members in your family that want 
to camp or have a family reunion, you can't. The plan allows 
for only 12 heartbeats. You could have 10 family members and 2 
dogs and that is it. You can't bring your family to see the 
public lands because access is now severely limited. The 
monument plan proposes closing over 1000 miles of existing 
county roads.
    FLPMA was passed to allow access and use of the public 
lands by the American people in a myriad of ways. Access to 
these lands was provided not just by backpacking and hiking but 
also by mechanical means. Specific areas that need further 
protection from off road vehicles or human impacts can be 
protected by creating Areas of Critical Environmental Concern 
(ACEC's). Rivers can be protected by the Wild and Scenic Rivers 
Act. You don't need to lock up almost 1.9 million acres to 
protect a few antiquities. You can keep the public lands open 
to the public and protect the environment. The BLM has been 
doing both for over 25 years. That is what FLPMA was all about, 
protecting the land while using the mostly renewable resources. 
1906 was a long time ago. There were no other environmental 
laws on the books to protect the antiquities on public lands. 
We have come a long way in the last 95 years in managing and 
protecting the public lands. This is not antiquities protection 
issue, this is a wilderness issue. It was a back door method 
that the Babbitt administration used to create wilderness in 
Southern Utah, something that they couldn't accomplish legally 
in congress.
    Ms. Cook. I would like to comment on 50,000 acre provision, 
and then after I am done, ask Congressman Simpson to comment on 
Congress's role. But I would like to again to refer to the 
Cascade-Siskiyou National Monument. Now the national monument 
portion of this is only 53,000 acres. But had a process been in 
place prior to the designation of the monument parcels, the 
public and private ownership controversies would have been 
minimized, whereas now the management options are constrained, 
the land managers of the monument are constrained by the 
proclamation, and controversy will be assured for years to 
come. And it is my understanding that over 50,000 acres, 
Congress has to agree. If Congress can't agree, within 2 years, 
then the President's proclamation stands. Is that correct, or 
am I incorrect about that?
    Mr. Simmons. That is correct. Under this legislation, the 
President has 2 years or the Congress has 2 years in which to 
ratify that decision. The President could still make that 
designation. There is nothing that prevents the President of 
making a designation of 10 million acres if he so chooses.
    Ms. Cook. If Congress can't act then the designation 
stands?
    Mr. Simmons. No. Congress has to act to affirm that 
decision.
    Ms. Cook. I appreciate you clarifying that. Yes.
    Mrs. Christensen. I thank you for your answers. Having had 
monument designations recently declared in my district and have 
been in the middle of a fire storm over them, I, you know, 
fully support the propose--the consultation with the community 
to mitigate any adverse impact, but even, despite my recent 
experience, I cannot support the rest of the provisions of this 
bill.
    Mr. Hefley. Does anyone have any question? We have a whole 
other panel we need to be through here by noon. Does anyone 
have burning questions of this panel?
    Mr. Simpson. I have a couple.
    Mr. Hefley. If you keep them short. We will do that. 
Because we have got people that have come from out of town we 
do want to hear them, but Mr. Simpson.
    Mr. Simpson. Mr. Roosevelt, your comment that it prevents 
the President from making a designation it doesn't do that. The 
President can make any size designation he wants to. It is just 
if it is over 50,000 acres, Congress has to be involved in the 
process. The value of the Antiquities Act, given all the 
environmental laws we have today, is for a president to get out 
and prevent some damage that could be done immediately by some 
threat, I mean, that really is the only value of the 
Antiquities Act versus the other laws we have on the books. 
Isn't that true?
    Mr. Roosevelt. Well, you asked two questions, if I may, 
Congressman. The first is by not acting, the President's 
declaration is overturned. And Congress, as you know, some 
times get an awful lot of business on its plate and it won't 
get to the things it might want to get to and the designation 
will expire. And given the success of this Act, and going back 
and seeing how many monuments have been put into place, I think 
that this piece of legislation is unwise. I think the 
legislation has stood very well, has been extraordinarily 
effective.
    Mr. Simpson. Let me respond to that if I could. I 
continually hear the environmental community say jeez, Congress 
won't act and they will just let it expire, the monuments will 
go away. Congress, since 1964, since the Wilderness Act has 
been put into place, has been created more wilderness acres 
than the monuments since 1906. Congress has been responsive in 
this area of trying protect our public lands. We haven't just 
ignored them. And to subject that jeez, Congress just won't act 
I think is irresponsible. Go ahead.
    Mr. Roosevelt. Perhaps reasonable people may disagree, but 
I refer, for example, Congressman Farr of California, when he 
wanted to get a designation off North Monterey for wilderness, 
he couldn't get it done. There may be a whole bunch of reasons 
why, but eventually Secretary Babbitt had that designated as a 
national monument. That is an example of where there seems to 
be some inertia. I think if you look back and see the success 
of these monuments, there are relatively few that people look 
back and say--in fact, none that I an think of--that say, gee, 
I wish we hadn't done that. And indeed there say mechanism that 
you can undo it if it is really that egregious.
    In terms of the imminent threat, I think that is a good 
point. But I think that the chief executive has one piece of 
legislation which has been extraordinarily effective, and by 
and large, I think has been used very well. I think the 
comments that have been made about the lack of consultation 
from time to time, those are valid. But we shouldn't allow 
ourselves, with all due respect, to get unduly exercised about 
that, because I think that problem will be fixed. And indeed, 
there is some legislation which has been passed which makes 
that process, I think, a little bit better, maybe not good 
enough to your satisfaction, but we don't want to emasculate a 
piece of legislation which has been very, very good. That is my 
opinion.
    Mr. Simpson. I appreciate your comments. I want you to know 
we are not trying to emasculate it. I am actually trying to 
make it work. I will tell you that in Idaho, when they did the 
660,000 acres of the national monument, the expansion of the 
Craters of the Moon, people were upset. And then they came in 
later and wanted to do the Hunt Camp, which was the perfect use 
of the Antiquities Act, the perfect use of it. But the threat 
of saying oh, here's another national monument, the public 
reaction was boy, there they go again. And that is abuse of 
that Act, is what is going to destroy this Act.
    And until you guys get your heads screwed on about what is 
going on out there with this national monument designation and 
the fact that even the President, even the President ought to 
follow the law. And when the law says it ought to be under some 
imminent threat, then it ought to be under some imminent 
threat. Not saying well, gee, some time in the future somebody 
might do something else. They had plenty of time to say let's 
run a bill through Congress to protect this unique area called 
the Great Rift. But no, they wanted to do that. They wanted to 
make a political statement out of it. It is not the anger in 
the west, it is the abuse by single individuals.
    And I cannot believe that the environmental community 
supports putting so much power into one individual's hands and 
saying boy, you control everything. But it seems like whenever 
we want to get something out to local communities and have 
their involvement and their input in the decision-making, now 
that is taken to the Federal Government. Because we don't want 
to have to deal with all the local communities, and let's just 
take to the Federal Government and deal with Congress.
    If you take it away from Congress and put it in the 
President's hand, then we only have to with have one guy. It is 
like we don't want the public involved in it. I don't think the 
environmental community actually trusts the public. I say that 
when we get on the side of the American people, then we will 
have some good environmental laws. I trust the American people. 
I trust them to have input and make decisions that are good. 
And no, not just local people, but people across the country. 
But I don't think your organizations actually trust the 
American people. That is what really bothers me about this. 
Reasonable people can disagree.
    I look forward to working with you on this. Because I tell 
you what, it might surprise you, I don't disagree with a lot of 
the things that you do. I live in the west because I love it. 
And I wonder why I am here about 90 percent of the time.
    Mr. Roosevelt. I share your views on that 100 percent. When 
I got that plane to come back to New York City, I wondered why 
in the devil I was doing that. I do think the organizations 
that I work with, whether it be the League of Conservation 
Voters, whether it be Wilderness, whether it be the Institute 
for the Environmental and Natural Resources out in Wyoming, we 
do trust people. I believe the IENR has been particularly 
farsighted in recognizing the need to get greater 
collaboration. There has to be a sense of respect, and we to 
get the people in the west to feel their part of that process. 
I don't think the solution is to amend the Antiquities Act. I 
guess that is where you and I may differ.
    Mr. Hefley. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. I appreciate the 
intensity of my colleague on this issue. I also very much 
appreciate your statements of concern, and I think you said we 
can be on the same side of issues. If the side that we are on 
is improving the land and maintaining some access so people can 
enjoy the beauty, and at the same time, protect the delicate 
areas, I think you will find we have a great deal of overlap. 
Are you familiar with the Deseret Ranch in Utah and their 
theory of wholistic resource management there.
    Mr. Roosevelt. Not intimately, but I am aware of them.
    Mr. Cannon. The theory is that if you graze intensively, 
the cattle break up the ground, they leave biotic material in 
their wake and having chewed the grass, it is more robust when 
it comes back. We have been talking with some groups about 
doing a similar experiment on the Grand Staircase-Escalante 
National Monument. Is that something your group would support 
or the groups that you are affiliated with would support?
    Mr. Roosevelt. That is a very good question, and to be 
honest, I can't answer that question because I have never 
raised that question. I am familiar with that technique. The 
theory that frankly it was the buffalo or the bison that really 
did that first.
    Mr. Cannon. We killed all the bison, now we have this 
ground blowing away.
    Mr. Roosevelt. There are some questions that people have as 
the bison come in and they really chew up the ground and they 
go away and they historically wouldn't come back to that same 
place for a couple of years. And then they come back and chew 
it up, and hoof action, defecating, et cetera, was very good 
for the native grasses that were there. There are a lot of 
questions. I am probably too long-winded to your question. 
There are a lot of questions, will cattle do it in the same 
way? Do we know enough about how you move the cattle around? 
And do we have the right grasses in place because we have so 
many exotics and so many imported grasses, and will they 
respond in the same way?
    Speaking for myself, because I don't want to put words in 
the mouth of my colleagues, that is the kind of experiment I 
think we should carry out and see if it works. Do it on a very 
small scale so we can see if it works or not.
    Mr. Cannon. Speaking of scale I think we are looking at 
100,000 acres, is that what you would call--.
    Mr. Roosevelt. I personally would be comfortable with that. 
I would like to see if it works or not. We need to find better 
ways of restoring that range grass. When you talk to some of 
the people that know a lot about grass, there is an expert I 
consult a lot, a guy called Brian Sindular. He is helping in 
our ranch, bringing in new species and new grasses and how are 
we going to run the cattle on it. There is a lot that we don't 
know. If we start from the position we don't know a lot, let's 
try and see what happens and be very careful and recognize we 
don't know.
    Mr. Cannon. Thank you. I appreciate that approach. You have 
raised some of the serious questions that we have there. I 
would note that there are large areas, but the rainfall in the 
Deseret Ranch area, which is an incredibly lush productive 
ranch, one of the few ranches in the world that is actually 
making serious money on the cattle they raise there, the 
rainfall in that area is similar to the rainfall in much of the 
Grand Staircase Escalante National Monument. I hope we can work 
together on the future. I apologize. We got a little rushed by 
the Chairman.
    I want to thank you, Ms. Cook, for coming and Mr. Noel, 
because we have had a great relationship in the past. I can't 
help asking Mr. Noel and Ms. Cook, you have 5,000 people, Mr. 
Noel, in Kane County. And when you sit here, you are speaking 
for 5,000 people. And Mr. Roosevelt is speaking for millions of 
people or a multiple of people from New York. Why should we 
give your views as much credence and weight as Mr. Roosevelt's?
    Mr. Noel. Well, as we look at the last election we can 
readily see that President Bush was very, very popular in rural 
America. He won the vote in about 2700 or 2800 counties. The 
urban areas of the country on the other hand voted for Mr. 
Gore. I believe that is because rural America was taken for 
granted. Even though the food and fiber of this country is 
produced in rural America in mainly those 2800 counties, the 
Clinton/Gore Administration didn't think they were very 
important.
    I think we have some strategic minerals and strategic 
resources out there in rural America that we need to recognize. 
We have about 6000 people in Kane County. I trust the people of 
Kane County to protect not only the private lands but the 
public lands as well. That is why these lands are in such great 
condition that you can designate them as a National Monument, 
the locals have done a great job in using yet protecting these 
lands. Our philosophy in Kane County is use it up, wear it out, 
make it do or do without. We are not excessive in our needs and 
uses of the land. We want to make sure we take care of the 
land. We have done a good job of that. I think it is important 
that we take care of the land. Our water, our resources are all 
there, we depend on the public lands for our livelihood. I 
don't understand how people think the citizens of Kane County 
are trying to destroy the area such the Federal Government 
needs to step in and make massive withdrawals of land from 
multiple use for Antiquities that quite frankly just ain't 
there. The laws that were in place for the public lands in our 
county were such that the land could be used but not abused. 
The great myth that the environmental organizations feed to the 
American public is we are protecting and preserving these lands 
for your children. In reality they are closing access and the 
public's use of these lands for their own selfish interests. 
They shut out the public. They lock out the public from their 
lands.
    Mr. Cannon. My time is about expired. Can I just add one 
thing, that is, the law protects 5,000 the way it protects 5 
million. If you don't support the rule of law for 5,000, you 
won't support it for anyone. Thank you.
    Ms. Cook. I just have something very, very quick. This has 
been characterized as east versus west. Well, there is a lot of 
access in the east that is threatened as well, beaches and 
woods and so on. And it is not so much east versus west as 
where you live and what happens in your own neighborhood and 
that goes for everywhere.
    Mr. Hefley. I thank the panel. The next panel is composed 
of the Honorable Dee Hauber, Mayor, Town of Groton, 
Connecticut; Mr. James L. Streeter, Avery Point Lighthouse, 
Groton, Connecticut; Ms. Anne Olson, executive Director, 
Buffalo Bayou Partnership, Houston, Texas, and Mr. Stephen Fox, 
Architect, in Houston Texas.
    Mr. Hefley. I will remind you to try and keep your 
testimony to 5 minutes. And we will start over here on the left 
with the Honorable Dee Hauber.

     STATEMENT OF HON. DEE HAUBER, MAYOR, TOWN OF GROTON, 
                          CONNECTICUT

    Ms. Hauber. Thank you, Mr. Chairman and Subcommittee for 
hearing us today. Let me begin by taking just a few moments to 
describe Groton. Groton is a beautiful historic shoreline town 
situated between the Mystic River and Thames River on Long 
Island Sound in southeastern Connecticut. We have 40 miles of 
coast line and we are midway between New York and Boston. We 
are a major economic and employment center. Our growth reflects 
change in being the most defense dependent town in the country, 
to diversity. We are now in pharmaceuticals and tourism. We are 
home to Pfizer, Electric Boat and the Subase, which employs 
approximately 22,000 people. The Subase has been there since 
the 1890's and Electric Boat has been building submarines since 
the 1900's, early 1900's.
    Our history is steeped in maritime tradition. Groton is the 
site of the only revolutionary war battle in Connecticut. Fort 
Griswold which was attacked by the British forces which were 
led by Benedict Arnold after they burned the city of New 
London. Groton is known as the submarine capital of the world. 
We are very proud of that. We are associated with the design 
and manufacturing of the modern submarine.
    Groton, New London Subase is the home port of the fast 
attack submarine fleet in the Atlantic. We are also the 
location of the historic ship USS Nautilus, the first nuclear 
powered submarine. We are very proud of our history. Just south 
of the Subase and Electric Boat is the University of 
Connecticut at Avery Point where the lighthouse is located. The 
State of Connecticut, as part of the UCONN 2000 program, has 
pledged millions of dollars to make this campus a world class 
institution for marine sciences. A new marine science 
laboratory will open for students this fall.
    Project Oceanology, a cooperative of several local 
districts, opened a new building this past spring. Sharing the 
UCONN campus are two United States Coast Guard commands, the 
Research and Development Center and the International Ice 
Patrol. The Coast Guard has been a tenant of the campus since 
World War II. It was during the war that the lighthouse was 
constructed. Mr. Streeter will speak of that.
    The Avery Point Lighthouse is important to our maritime 
history, and is truly a significant symbol of our community. 
Restoration of the Lighthouse has been a major community 
effort. I am bringing you a copy of the petitions that are with 
approximately 10,000 signatures. There is no local opposition 
to this. We respectfully request your favorable consideration 
of this proposal to fund the restoration of the historic 
treasure. I tried to keep it short to conserve some time.
    [The prepared statement of Ms. Hauber follows:]

Statement of Dolores E. Hauber, Mayor, Groton, Connecticut on H.R. 1518

    Good morning.
    Chairman Hefley and members of the subcommittee:
    Thank you for this opportunity. My name is Dee Hauber and I 
currently serve as Mayor for the Town of Groton. I have served on the 
Town Council since 1989 and this is my third term as Mayor.
    Let me begin by taking a few moments to describe my Town. Groton is 
a beautiful, historic shoreline town situated between the Mystic River 
and the Thames River on Long Island Sound in Southeastern Connecticut. 
This provides 40 miles of coastline for our 40,000 residents. We are 
midway between New York and Boston.
    Groton is a major economic and employment center. Our economic 
growth reflects a change from being the most defense dependent Town in 
the entire country, to diversifying our local economy with growth in 
the tourism and pharmaceutical sectors. We are home to Pfizer, Electric 
Boat and the US Subase which combine to employ 22,000. The Subase has 
been here since the 1890's and Electric Boat has been building 
submarines since the early 1900's.
    Our history is steeped in maritime tradition. Groton is the site of 
the only Revolutionary War battle site in Connecticut, Fort Griswold, 
which was attacked by British forces led by Benedict Arnold after they 
burned the City of New London.
    Groton is known as the Submarine Capital of the World for its 
association with the design and manufacturing of modern submarines. The 
Groton/New London Subase is homeport to the fast attack submarine fleet 
in the Atlantic. We are also home to the historic ship, USS Nautilus, 
the first nuclear powered submarine, the Submarine Force Museum and 
Library that was recently expanded to include a major Cold War exhibit, 
and the Submarine Wall of Honor. As you can tell, we are most proud of 
our history.
    Just south of the Subase and Electric Boat is the University of 
Connecticut Avery Point Campus at which this lighthouse is located. The 
State of Connecticut, as part of the UCONN 2000 program, has pledged 
millions of dollars to make this campus a world class institution for 
marine sciences. A new marine sciences laboratory will open for 
students this fall. Project Oceanology, a cooperative of several local 
school districts, opened its new building this past spring.
    Sharing the UCONN Campus are two United States Coast Guard 
Commands: the Research and Development Center and the International Ice 
Patrol. The Coast Guard has been a tenant on the Campus since WWII. It 
was during the war that this lighthouse was constructed. Mr. Streeter 
will follow with more details on that history, so I will not at this 
time.
    The Avery Point Lighthouse is important to our maritime history and 
is truly significant as a symbol of our community. Restoration of the 
lighthouse has been a major community effort. Here is a copy of 
approximately 10,000 signatures gathered in support of the lighthouse 
restoration. There is no local opposition to the project.
    We respectfully request your favorable consideration of this 
proposal to fund the restoration of this historic treasure. Thank you.
                                 ______
                                 
    Mr. Hefley. Thank you. I will point out that your remarks 
will be put in the record in their entirety.
    Mr. Hefley. Mr. Streeter.

STATEMENT OF JAMES L. STREETER, AVERY POINT LIGHTHOUSE, GROTON, 
                          CONNECTICUT

    Mr. Streeter. My name is James Streeter. I am the co-
founder and co-Chairman of the Avery Point Lighthouse Society, 
known as APLS, a group of local volunteer citizens who are 
dedicated to saving, restoring, and relighting Connecticut's 
Avery Point Lighthouse. You have all been provided a packet, 
giving a brief history. The Avery Point Lighthouse is located 
on the University of Connecticut's property in Groton, 
Connecticut. The State of Connecticut purchased that property 
in 1938. In 1942, the State of Connecticut quitclaim deeded the 
property to the United States Government. The site became the 
home of the United States Coast Guard Training Station from 
1942 through 1967. The university now has reoccupied the 
facilities.
    It is interesting to note that the deed transferring the 
property to the United States Government stipulated that the 
government would erect and maintain on or over the lands, 
buildings, lights or other apparatus to be used as aids to 
navigation.
    In March 1943, the Coast Guard did finish construction of 
the Avery Point Lighthouse. Although it was considered ready 
for service at the time, World War II ``hostilities concerns'' 
were taking place which precluded it from being lit until May 
1944. The light remained an aid to navigation until it was 
extinguished in September 1967 when the Coast Guard moved their 
facilities to New York.
    The Avery Point Lighthouse is indeed the last lighthouse 
built in the State of Connecticut. And it is the only 
lighthouse in the Nation built as a memorial to honor the men 
and women who served as lighthouse keepers. Unfortunately, over 
the past 20 years, maintenance and upkeep of the facility has 
been sorely lacking and largely discontinued. The structure now 
has become seriously deteriorated.
    In July of last year, our organization became actively 
involved in the effort to restore the lighthouse. We are 
working very closely with representatives of the University of 
Connecticut at Avery Point as well as staff members from the 
American Lighthouse Foundation of Wells, Maine, an 
internationally-recognized nonprofit organization dedicated to 
preserving lighthouse history and heritage.
    Over the past year, our organization has accomplished many 
goals. We have obtained in excess of 9,000 signatures on 
petitions requesting State of Connecticut and Federal 
Government funding. We have received donations of $3,000 each 
from local governments, specifically the City of Groton and the 
Town of Groton. We have raised in excess of $35,000 through 
various fund-raising activities, membership drives and sales of 
lighthouse merchandise. Recently, we received a matching bond 
grant from the State of Connecticut for the amount of $150,000.
    Costs for the stabilization, restoration and relighting of 
the structure are estimated to exceed $350,000. Our 
organization is committed to its goals, and we will continue 
fund-raising activities until the restoration project is 
complete and the lighthouse becomes part of the overall public 
access program to the historical and educational resources of 
Long Island Sound, which borders the States of Connecticut, New 
York and Rhode Island. We request your consideration and 
support of H.R. 1518.
    Thank you for your attention and I stand ready to answer 
any questions.
    Mr. Hefley. Thank you.
    [The prepared statement of Mr. Streeter follows:]

  Statement of James L. Streeter, Co-Chairman, Avery Point Lighthouse 
                      Society, Groton, Connecticut

    Representative Hefley and distinguished members of the Committee.
    My name is James L. Streeter and I am a co-founder and co-chairman 
of the Avery Point Lighthouse Society, known as APLS, a group of local 
volunteer citizens who are dedicated to saving, restoring and 
relighting Connecticut's Avery Point Lighthouse.
    I would like to thank this Committee for providing the opportunity 
to publicly present some facts concerning this lighthouse. I would also 
like to thank Representative Rob Simmons for sponsoring this bill and 
for his continued support and commitment to this extremely important 
project.
    You have each been provided with a packet giving a brief history of 
the lighthouse and outlining some of the efforts being made to restore 
this significantly historic and educational structure.
    The Avery Point Lighthouse is located on the University of 
Connecticut's Avery Point campus in Groton, Connecticut. The 72-acre 
campus, once the estate of wealthy industrialist Morton B. Plant, was 
purchased by the State of Connecticut in 1938. The State of Connecticut 
Quit Claim deeded the property to the United States Government in 1942. 
The site became the home of the United States Coast Guard Training 
Station from 1942 through 1967. The University of Connecticut has 
occupied the site since 1967.
    It is interesting to note, the deed for the transfer of the 
property to the United States Government, stipulated that the 
[government] ``erect and maintain on or over the land--beacon lights or 
other buildings and apparatus to be used in aid of navigation''.
    Thus in March of 1943 the United States Coast Guard fulfilled the 
requirement of the Quit Claim Deed and construction of the Avery Point 
Lighthouse was completed. Although it was considered ``ready for 
service'' at that time, World War II ``hostilities concerns'' precluded 
the light from being lit until May of 1944. The light remained an aid 
to navigation until it was extinguished in September 1967, when the 
Coast Guard moved their training facilities to New York.
    The Avery Point Lighthouse was the last lighthouse built in the 
State of Connecticut and [reportedly] is the only lighthouse in the 
nation built as a memorial to honor the men and women who served as 
lighthouse keepers.
    Unfortunately over the past twenty years or so, maintenance and 
upkeep of the lighthouse has been sorely lacking and largely 
discontinued. The structure now has some serious deterioration 
problems.
    In July of last year, APLS became actively involved in the effort 
to restore the lighthouse. The group is working closely with 
representatives of the University of Connecticut at Avery Point as well 
as staff members of the American Lighthouse Foundation of Wells, Maine, 
an internationally recognized non-profit organization dedicated to 
preserving lighthouse history and heritage.
    Over the past year our organization has been successful in raising 
public awareness, support and monies for the restoration effort.
    Some of the accomplishments by APLS, since last July include:
    <bullet> LObtaining in excess of 9,000 signatures on petitions 
requesting State of Connecticut and Federal governmental funding for 
the restoration.
    <bullet> LReceiving donations of $3,000 each from the Governments 
of the Town and City of Groton.
    <bullet> LRaising in excess of $25,000 through various fundraising 
activities, membership drives and sales of lighthouse merchandise.
    <bullet> LReceiving a matching bond grant from the State of 
Connecticut for the amount of $150,000.
    <bullet> LAcquiring the (Pro Bono) services of a reputable 
engineering group to conduct a structural study of the lighthouse.
    Costs for the stabilization, restoration and relighting of the 
structure is estimated to exceed $300,000. Our organization is 
committed to its goals and will continue its fundraising activities 
until the restoration project is complete and the lighthouse becomes 
part of the overall public access program to the historical and 
educational resources of Long Island Sound which boarders the States of 
Connecticut, New York and Rhode Island.
    The Avery Point Lighthouse Society requests your consideration and 
support of H.R. 1518.
    Thank you for your attention and I stand ready to answer any 
questions.
                                 ______
                                 
    Mr. Hefley. Ms. Olson.

  STATEMENT OF ANNE OLSON, EXECUTIVE DIRECTOR, BUFFALO BAYOU 
                   PARNERSHIP, HOUSTON, TEXAS

    Mr. Olson. Mr. Chairman, members of the Subcommittee, I 
thank you for the opportunity to be here today. And I would 
also like to thank Congressman Gene Green for introducing this 
legislation for his strong support of Buffalo Bayou 
redevelopment efforts. My testimony provides an overview of the 
proposed Buffalo Bayou National Heritage area and its national 
significance as a natural cultural recreational and a historic 
resource. I also plan to discuss the organizational structure 
of the Buffalo Bayou partnership, its funding sources 
partnerships and its capacity to administer the National 
Heritage Area.
    Chances are when you think of Houston, you probably think 
of a modern downtown skyline, congested freeways and even a 
cowboy or two. But there really is another Houston, one with a 
remarkable history and a nationally significant history. Along 
Buffalo bayou are numerous historic sites, early ethnic 
neighborhoods, and some of the city's oldest parks. By creating 
the Buffalo Bayou National Heritage Area, these sites will be 
linked like a string of pearls.
    In 1836, the Allen brothers founded Houston at the foot of 
Main Street along Buffalo Bayou. Allen's Landing, as it is 
known today, became Houston's first port. Nearby is the Main 
Street Market Square Historic District, a 48-block area with 
more than 50 structures on the National Register of Historic 
Places. These and other nearby National Register buildings and 
structures all tell the story of Houston's industrial past. 
While significant preservation has occurred, a national 
heritage area designation would strengthen local preservation 
efforts and allow us to place more than 100 additional 
structures and sites on the National Register. Funds also would 
be made available for the restoration of many structures into 
interpretative visitors centers. Buffalo Bayou was once called 
the highway of the Republic. The battle of San Jacinto fought 
along the banks of Buffalo Bayou gained Texas' independence 
from Mexico and allowed colonization of the entire State.
    Moreover, it accelerated expansion of the western United 
States. Today the San Jacinto State Historical Park and 
National Historic Landmark has more visitors than any other 
historical park in Texas. Perhaps nothing illustrates Houston's 
entrepreneurial spirit more than its ship channel, a man-made 
waterway that connects Houston's port to the Gulf of Mexico 50 
miles away. The port is located 6 miles east of downtown on 
Buffalo Bayou. It is number one in the U.S. in foreign shipping 
and number 2 in tonnage. It is surrounded by the largest 
concentration of oil refining and petrochemical plants in the 
Nation. The National Heritage Area also will celebrate 
Houston's diversity. Historic Mexican and Afro American 
neighborhoods still can be found today along Buffalo Bayou. For 
a multi-cultural city whose ethnic population now exceeds its 
Anglo population highlighting the lives of these early ethnic 
groups will be an important and vital role of the proposed 
National Heritage Area. Buffalo Bayou, first and foremost, is 
Houston's greatest natural resource. Several bayou segments 
have been designated part of the world famous Great Coastal 
Texas Birding Trail. More than 15 miles of hike and bike trails 
line Buffalo Bayou's banks, and more than 20 additional miles 
are funded and planned. The waterway is home to 10 city and 
county parks. A National Heritage Area designation also builds 
on the progress that our organization and others have already 
made. Our organization was created in 1986 by the mayor of 
Houston and Harris County judge to act as a overseer authority 
over Buffalo Bayou. We are a coalition of civic, environmental, 
governmental and business representatives.
    Over the past 6 years alone we have raised more than $25 
million in private and public funds for Buffalo Bayou's 
redevelopment. And specific accomplishments are listed in my 
written testimony. We know that partnerships are the key to the 
success of the national heritage area program. We have the 
experience and the capacity to work cooperatively with a broad 
range of stakeholders along the Buffalo Bayou corridor. We have 
already partnered with the National Park Service. We worked 
with the National Park Service's River Trails and Conservation 
Assistance Program for more than 3 years to develop Houston's 
first hike and bike rail to trail hike and bike--rail to trail, 
it is a hike and bike trail that was converted from abandoned 
railroad.
    Ms. Olson. We also developed the Buffalo Bayou interpretive 
master plan. We know firsthand the value of the technical 
assistance provided by this Federal agency and know how to 
utilize its resources for the utmost effectiveness.
    We are partnering currently with the National Fish and 
Wildlife Foundation and Texas General Land Office on land 
acquisition along Buffalo Bayou. We are working with the Texas 
Department of Transportation on hike and bike trails funded 
with over $10 million in Federal transportation funds. We also 
have recently initiated a $1 million master plan study that is 
being coordinated by an internationally recognized team of 
consultants.
    The Buffalo Bayou National Heritage Area also can provide 
enhanced green space as Houston rebuilds after the devastation 
of recent Tropical Storm Allison. This storm caused more than 
$5 billion worth of damage to our city. Federal funds can help 
us restore parkland and develop a green infrastructure that 
will allow for flooding while providing open space and 
recreational opportunities.
    Funding is desperately needed to remedy the significant 
erosion that has taken place among Buffalo Bayou's banks.
    Mr. Hefley. I am sorry, I am going to have to cut you off. 
I hate to stop your testimony, very good testimony, but in 
order to get through it, I would be a lot more sympathetic with 
your project if you hadn't let the San Jacinto Inn close, if 
you are familiar with that. Best place I ever ate. Did they 
tear that building down?
    Mr. Fox. I am afraid so.
    Mr. Hefley. They did? Well, there goes your project.
    [The prepared statement of Ms. Olson follows:]

Statement of Anne Olson, President, Buffalo Bayou Partnership, Houston, 
                           Texas on H.R. 1776

    Mr. Chairman and members of the subcommittee, I sincerely thank you 
for this opportunity to appear before the Subcommittee on National 
Parks, Recreation and Public Lands in support of House Bill 1776 to 
authorize the Secretary of the Interior to study the suitability and 
feasibility of establishing the Buffalo Bayou National Heritage Area in 
Houston, Texas.
    My name is Anne Olson and I am President of the Buffalo Bayou 
Partnership. The group oversees beautification and redevelopment 
efforts along Buffalo Bayou, Houston's historic waterway. I have been 
president of this non-profit organization for the past six years.
    My testimony will provide you with an overview of the proposed 
Buffalo Bayou National Heritage Area and its national significance as a 
natural, cultural, recreational and historic resource. A statement of 
historical significance will be provided by Mr. Steven Fox, lecturer in 
the history of architecture at Rice University and the University of 
Houston, who joins me here today.
    My testimony includes information about the organizational 
structure of the Buffalo Bayou Partnership, its funding sources, it 
numerous partnerships, and its capacity to administer the proposed 
National Heritage Area.
    As you know, partnerships are key to the success of the National 
Heritage Area Program. I am here to tell you about the significant 
public-private efforts that are the foundation of our Buffalo Bayou 
redevelopment program. These partnerships will be strong support for 
the Buffalo Bayou National Heritage Area. New partnerships will be 
formed, as well.
    Chances are when you think of Houston, America's fourth largest 
city, you think of a modern downtown skyline, congested freeways and a 
cowboy or two. But there is another Houston--one with a remarkable and 
nationally significant history. From prairie to port to modern urban 
center, Buffalo Bayou links Houston's past and its present. It connects 
our city's diverse population to its heritage. The events that have 
played out along its banks from prehistoric times to today represent a 
legacy that begs to be told.
    Along the banks of Buffalo Bayou there are a multitude of historic 
sites, early ethic neighborhoods, and some of the city's oldest parks. 
By creating the Buffalo Bayou National Heritage Area, sites of 
historic, cultural, recreational and archaeological interest will be 
linked like a string of pearls. Moreover the Buffalo Bayou National 
Heritage Area will create an amenity that is vital to our city's ``new 
economy,'' one that places a strong emphasis on natural, recreational 
and lifestyle opportunities.
    Let me take you on a tour of Buffalo Bayou. It runs through the 
heart of downtown Houston. Here, we find Allen's Landing at the foot of 
Main Street. It was here in 1836 that Houston's founders, the Allen 
brothers stepped ashore and founded Houston. Allen's Landing became 
Houston's first port and a thriving commercial hub. Nearby, is Main 
Street/Market Square Historic District, a 48-block area with more than 
50 structures on the National Register of Historic Places. Other nearby 
buildings and structures on the National Register--Willow Street Pump 
Station, Waterworks Plant and Main Street Viaduct--all tell a story of 
Houston's industrial past. While significant preservation has occurred 
along Buffalo Bayou, a National Heritage Area designation would 
strengthen local historic preservation efforts to recommend more 
structures to the National Register. According to the Greater Houston 
Preservation Alliance, more than 100 additional structures and sites 
would be eligible for listing on the Register. Through the National 
Heritage Area program, funds also would be available for the 
restoration and adaptive reuse of many structures into interpretive and 
visitor centers. These facilities will educate Houstonians and visitors 
about the city's industrial past.
    Buffalo Bayou was called the ``Highway of the Republic'' during 
Texas' struggle for independence. The Battle of San Jacinto, fought at 
the confluence of Buffalo Bayou and the San Jacinto River, gained 
Texas' independence from Mexico and allowed colonization of the entire 
state. Moreover, it accelerated expansion of the western United States. 
Today, the San Jacinto State Historical Park, a National Historic 
Landmark, has more visitors than any other historical park in Texas.
    Perhaps nothing shows Houston's entrepreneurial spirit and sheer 
bravado more than the man-made Houston Ship Channel, 50 miles inland 
from Galveston Bay. As humorist Will Rogers said in 1930, ``Houston 
dared to dig a ditch and bring the world to its door.'' Located six 
miles east of downtown Houston on Buffalo Bayou, this port--today the 
nation's 1 port in foreign shipping and 2 in tonnage--is home to the 
country's largest concentration of oil refining and petrochemical 
production. In addition to shaping Houston's economy and securing the 
city's stature as one of the world's foremost international trading and 
energy centers, the Port opened up the state of Texas and much of the 
Gulf Coast to the world.
    Although the Buffalo Bayou National Heritage Area would highlight 
important military leaders, oil wildcatters, and industrial titans, it 
would also provide the city with an invaluable opportunity to highlight 
the lives of early Mexican Americans and Afro-Americans who lived along 
the bayou, and worked in the early rail yards and at the Port of 
Houston. Historic ethnic neighborhoods can still be found today along 
Buffalo Bayou--the Fourth and Sixth Wards, two National Register 
districts with strong collections of 19th century shotgun houses and 
Victorian cottages, for example. For a multi-cultural city whose ethnic 
population now exceeds its Anglo population, highlighting the lives of 
these ethnic groups will be an important and vital role of the proposed 
National Heritage Area.
    While the historic and cultural resources of Buffalo Bayou are 
significant, Buffalo Bayou is first and foremost Houston's greatest 
natural resource. It is a mainstay of our region's little known 
ecological abundance. Eight distinct ecological zones surround the 
Houston area. Several segments of Buffalo Bayou have been designated 
part of the world-famous Great Coastal Texas Birding Trail. The 
waterway is home to the Katy Prairie, one of the region's most 
significant habitats for migratory waterfowl, shore birds, songbirds 
and hawks. More than 15 miles of hike and bike trails line Buffalo 
Bayou's banks and more than 20 additional miles are funded and planned. 
Houston's first public parks sprouted up along the banks of Buffalo 
Bayou in the late 19th century and today, the waterway is home to 10 
City and County parks including Allen's Landing, Houston's birthplace 
and Sam Houston Park, the city's first public park that opened in 1899. 
Today, a 19th century collection of early Houston homes is displayed in 
this 20-acre downtown park.
    The same resourcefulness and entrepreneurial spirit that created 
the Houston Ship Channel are alive along Buffalo Bayou's banks today. A 
National Heritage Area designation will strengthen and build upon the 
progress that already is underway, progress the Buffalo Bayou 
Partnership fosters and supports in tandem with other Houston groups 
dedicated to preserving this waterway.
    The Buffalo Bayou Partnership was created in 1986 by the Mayor of 
Houston and Harris County Judge to act as an overseer authority for 
development along Buffalo Bayou. The 501 (c) (3) non-profit 
organization is a coalition of civic, environmental, governmental and 
business representatives. Our directors, who range from corporate and 
foundation heads to neighborhood residents, are approved by the Mayor 
and County Judge. We also have a strong ex-officio board, comprised of 
representatives from all levels of City and County government. Over the 
past five years, more than $25 million in private and public funds have 
been raised or leveraged for Buffalo Bayou's redevelopment.
    Specific accomplishments include:
    <bullet> LOpening of a 10-acre $22 million waterfront park in the 
heart of downtown.
    <bullet> LDevelopment of a master plan to unify more than $25 
million of existing and funded redevelopment projects at Allen's 
Landing Park, Houston's birthplace along Buffalo Bayou.
    <bullet> LAwarding of approximately $10 million in federal 
Intermodal Transportation Efficiency Act (ISTEA), and Transportation 
Enhancement funding for hike and bike trail development.
    <bullet> LConstruction of Houston's first rail-to-trail project--a 
$1.6 million effort, funded through the ISTEA program.
    <bullet> LCoordination of a $1 million master plan that is being 
led by an internationally recognized team of consultants. This planning 
study, which is now underway, has been funded jointly by the City of 
Houston, Harris County Flood Control District and Buffalo Bayou 
Partnership.
    <bullet> LRaising nearly $4 million for land acquisition along 
Buffalo Bayou. Currently, 18 acres of property have been purchased or 
are under contract.
    <bullet> LDeveloping a $100,000 interpretive master plan that calls 
for signage to be placed at more than 30 destinations along the Buffalo 
Bayou waterway. The Buffalo Bayou National Heritage Area would greatly 
assist us in implementing and promoting the interpretive system.
    This progress has been achieved through a range of public-private 
initiatives and joint projects with a variety of non-profit and 
philanthropic institutions. Unlike many National Heritage Areas that 
create new management entities once designation is granted, we have an 
existing organization with a solid track record of achievement already 
in place.
    Partnerships are key to the success of National Heritage Areas. We 
have the experience and the capacity to work cooperatively with a broad 
range of constituencies and stakeholders along the Buffalo Bayou 
corridor.
    <bullet> LWe have partnered with the National Park Service's 
Rivers, Trails and Conservation Assistance Program for more than three 
years. Development of Houston's first rail-to-trail and creation of the 
Buffalo Bayou interpretive master plan are two projects that resulted 
from this partnership with the National Park Service. We know first 
hand the value of the technical assistance provided by this federal 
agency and know how to utilize its resources for the utmost 
effectiveness.
    <bullet> LWe are partnering with the National Fish and Wildlife 
Foundation on land acquisition along Buffalo Bayou. Another public land 
acquisition partner is the The Texas General Land Office.
    <bullet> LA partnership with the Texas Parks & Wildlife Department 
has provided the City of Houston and Buffalo Bayou Partnership with a 
$500,000 grant for the redevelopment of Allen's Landing. These funds 
were leveraged with City of Houston and Harris County Flood Control 
District funds.
    <bullet> LThe Texas Department of Transportation has been a 
valuable partner in our efforts to landscape freeway areas surrounding 
Buffalo Bayou.
    <bullet> LHighlighting the bayou's historic resources has been 
accomplished through a partnership with the Greater Houston 
Preservation Alliance. Together, the two organizations have sponsored 
an annual tour of historic bayou industrial buildings.
    <bullet> LIn recent months, we have joined forces with 40 other 
civic groups and the Greater Houston Partnership, Houston's major 
business advocacy organization, to ``change the face of Houston.'' This 
major quality of life initiative is focused on the enhancement of the 
city's parks and bayous, and removal of visual blight. This unique 
coalition of business and environmental groups has come together 
because all entities realize that quality of life is key to the 
economic health of the Houston region. Never before, has the business 
community of Houston been so involved in quality of life issues. A 
Buffalo Bayou National Heritage Area would play a significant role in 
The Quality of Life Coalition's agenda and would profit from the 
leadership and backing of Houston's strong business community
    Many of our partners have provided letters in support of this 
testimony.
    Another important opportunity that presents itself at this 
particular moment in time is the ability of the Buffalo Bayou National 
Heritage Area to provide enhanced green space as the City rebuilds 
after the devastation of recent Tropical Storm Allison. It caused more 
than $5 billion in damage. to our city. We realize that federal funds 
cannot be used for land acquisition, but they can help us restore park 
land and develop a green infrastructure that will allow for flooding 
while providing open space and recreational opportunities. Funding is 
desperately needed to remedy the significant erosion that has taken 
place along Buffalo Bayou's banks as a result of the Allison Storm.
    We urge you to support House Bill 1776 to allow the National Park 
Service to study the feasibility and suitability of the Buffalo Bayou 
National Heritage Area. This prestigious designation would provide us 
with the mechanism to preserve a nationally significant landscape, to 
create a new economic development and tourism tool for our city, to 
develop new partnerships, and to restore Buffalo Bayou to its rightful 
place in the hearts and minds of Houstonians, Texans, and all 
Americans.
    Thank you Mr. Chairman and members of the subcommittee for allowing 
me to come before you today in support of the Buffalo Bayou National 
Heritage Area. I would be pleased to answer any questions that you and 
your colleagues may have.
                                 ______
                                 
    [Letters attached to Ms. Olson's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3923.004
    
    [GRAPHIC] [TIFF OMITTED] T3923.005
    
    [GRAPHIC] [TIFF OMITTED] T3923.006
    
    [GRAPHIC] [TIFF OMITTED] T3923.007
    
    [GRAPHIC] [TIFF OMITTED] T3923.008
    
    [GRAPHIC] [TIFF OMITTED] T3923.009
    
    [GRAPHIC] [TIFF OMITTED] T3923.010
    
    [GRAPHIC] [TIFF OMITTED] T3923.011
    
    [GRAPHIC] [TIFF OMITTED] T3923.012
    
    [GRAPHIC] [TIFF OMITTED] T3923.013
    
    Mr. Hefley. Stephen Fox.

      STATEMENT OF STEPHEN FOX, ARCHITECT, HOUSTON, TEXAS

    Mr. Fox. Mr. Chairman, members of the Subcommittee, thank 
you for inviting me to testify. I am Stephen Fox, architectural 
historian.
    Buffalo Bayou merits study to determine the suitability of 
designating it a National Heritage Area. Buffalo Bayou derives 
national historical significance from its role as a 
transportation artery. In the 1820's, when U.S. immigration to 
Texas began, it was recognized as providing the most reliable 
route for navigation into what was considered the interior of 
Texas.
    Buffalo Bayou is nationally significant in the area of 
maritime history for the transformation of its lower 16 miles 
between 1902 and 1914 into the Houston Ship Channel, which 
permits ocean-going ships to travel 50 miles inland from the 
Gulf of Mexico. The Houston Ship Channel is nationally 
significant in the area of industry, as the site of the largest 
concentration of petroleum refining and petro-chemical 
production facilities in the United States. The ship channel 
portion of Buffalo Bayou is nationally significant in the area 
of invention as the place where artificial rubber was first 
produced from butadiene during World War II.
    Buffalo Bayou is nationally significant in the area of 
military history because it is where the battle of San Jacinto 
was fought on April 21st, 1836. The battle of San Jacinto in 
which the Army of the Anglo-Texan General, Sam Houston, 
surprised and defeated the superior force of General Antonio 
Lopez de Santa Ana resulted in the independence of Texas from 
Mexico. Independence precipitated a sequence of historical 
events leading to the annexation of Texas by the United States 
in 1845, the U.S.-Mexican War and the expansion of the United 
States into the northern half of Mexico in 1848.
    Buffalo Bayou is nationally significant in the area of 
exploration-settlement because its importance as an artery of 
transportation and commerce led to the founding of the town of 
Houston in 1836, 4 months after the battle of San Jacinto.
    Buffalo Bayou is nationally significant in the area of 
community planning and development because it is what led the 
brothers A.C. and J.K. Allen to found the city of Houston at 
what they declared to be the head of navigation on the bayou.
    The bayou is significant for the cultural landscapes it 
traverses between South Shepherd Drive and the Turning Basin of 
the Ship Channel. These include the neighborhood of River Oaks, 
a nationally significant example of the early 20th century 
planned garden suburb, and Buffalo Bayou Park, a linear park 
and parkway planned in the 1920's to connect River Oaks to the 
Civic Center in downtown Houston.
    Buffalo Bayou Park is bordered by landscapes and working 
class neighborhoods that preserve older settings: Glenwood 
Cemetery of 1871, the oldest professionally-designed landscape 
in Houston; the Sixth Ward Historic District, Houston's oldest 
intact neighborhood; the San Felipe Courts Historic District, a 
New Deal-era planned public housing community; and the 
Freedmen's Town Historic District in Fourth Ward, Houston's 
oldest African American neighborhood.
    In downtown Houston, Buffalo Bayou traverses the Main 
Street-Market Square Historic District, encompassing much of 
the original town site, and warehouse districts that contain 
some of the oldest railroad alignments in Texas. Downstream 
from downtown Houston, Buffalo Bayou flows between the Second 
and Fifth Wards, which preserve sites relating to the cotton 
trade, wholesale trade and oil tool manufacturing. Second Ward 
and Magnolia Park, just upstream from the Turning Basin, were 
neighborhoods in which Mexican immigrants first settled in 
Houston in the 1910's.
    Buffalo Bayou demonstrates its historic centrality to the 
independence of Texas, the founding and development of Houston 
and its port, and Houston's commercial, industrial and 
demographic evolution. I commend Buffalo Bayou to you as worthy 
of study for designation as a National Heritage Area. Thank 
you.
    [The prepared statement of Mr. Fox follows:]

Statement of Stephen Fox, Lecturer, Rice University, Houston, Texas on 
                               H.R. 1776

    Mr. Chairman, members of the Committee: thank you for inviting me 
to testify. I am Stephen Fox, an architectural historian, and a 
lecturer at the University of Houston and Rice University.
    Buffalo Bayou merits study to determine the suitability of 
designating it a National Heritage Area.
    Buffalo Bayou derives national historical significance from its 
role as a transportation artery. In the 1820s, when U.S. immigration to 
Texas began, it was recognized as providing the most reliable route for 
navigation into what was considered the ``interior'' of Texas. Buffalo 
Bayou is nationally significant in the area of Maritime History for the 
transformation of its lower sixteen miles between 1902 and 1914 into 
the Houston Ship Channel, which permits ocean-going ships to travel 
fifty miles inland from the Gulf of Mexico. The Houston Ship Channel is 
nationally significant in the area of Industry as the site of the 
largest concentration of petroleum refining and petrochemical 
production facilities in the United States. The Ship Channel portion of 
Buffalo Bayou is nationally significant in the area of Invention as the 
place where artificial rubber was first produced from butadiene during 
World War II.
    Buffalo Bayou is nationally significant in the area of Military 
History because it is where the Battle of San Jacinto was fought on 
April 21, 1836. The Battle of San Jacinto, in which the army of the 
Anglo-Texan general Sam Houston, surprised and defeated the superior 
force of General Antonio L"pez de Santa Ana, resulted in the 
independence of Texas from Mexico. Independence precipitated a sequence 
of historical events leading to the annexation of Texas by the United 
States in 1845, the U.S.-Mexican War, and the expansion of the United 
States into the northern half of Mexico in 1848.
    Buffalo Bayou is nationally significant in the area of Exploration/
Settlement because its importance as an artery of transportation and 
commerce led to the founding of the town of Houston in 1836, four 
months after the Battle of San Jacinto. It is significant in the area 
of Politics/Government because the Texas Legislature designated Houston 
provisional capital of the Republic in 1836.
    Buffalo Bayou is nationally significant in the area of Community 
Planning and Development because it is what led the brothers A. C. and 
J. K. Allen to found the city of Houston at what they declared to be 
the head of navigation on the bayou. The bayou is significant for the 
cultural landscapes it traverses between South Shepherd Drive and the 
Turning Basin of the Ship Channel. These include the neighborhood of 
River Oaks, a nationally significant example of the early twentieth-
century planned garden suburb; and Buffalo Bayou Park, a linear park 
and parkway planned in the 1920s to connect River Oaks to the Civic 
Center in downtown Houston. Buffalo Bayou Park is bordered by 
landscapes and working class neighborhoods that preserve older 
settings: Glenwood Cemetery of 1871, the oldest professionally-designed 
landscape in Houston; the Sixth Ward Historic District, Houston's 
oldest intact neighborhood; the San Felipe Courts Historic District, a 
New Deal-era planned public housing community; and the Freedmen's Town 
Historic District in Fourth Ward, Houston's oldest African-American 
neighborhood.
    In downtown Houston, Buffalo Bayou traverses the Main Street-Market 
Square Historic District, encompassing much of the original townsite; 
and warehouse districts that contain some of the oldest railroad 
alignments in Texas. Downstream from downtown Houston, Buffalo Bayou 
flows between the Second and Fifth Wards, which preserve sites relating 
to the cotton trade, wholesale trade, and oil tool manufacturing. 
Second Ward and Magnolia Park, just upstream from the Turning Basin, 
were neighborhoods in which Mexican immigrants first settled in Houston 
in the 1910s and 1920s.
    Buffalo Bayou demonstrates its historic centrality to the 
independence of Texas, the founding and development of Houston and its 
port, and Houston's commercial, industrial, and demographic evolution. 
I commend Buffalo Bayou to you as worthy of study for designation as a 
National Heritage Area.
                                 ______
                                 
    Mr. Hefley. Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I don't have any 
questions. I look forward to working with the mayor and the 
community groups and my colleague on finding a way to address 
the issue with the lighthouse in Groton, because I do believe 
that it has significance and should be a national historic 
site.
    Sorry I didn't get to Houston with my colleagues a few 
weeks ago, or I might have had some prior information about the 
bayou, but I appreciate the testimony and I look forward to 
working with you on this piece of legislation and seeing the 
outcome of this study.
    Mr. Hefley. I want to thank the Committee and apologize 
that we have to rush. Those beepers that you hear going off, we 
respond like Pavlov's dog, we start salivating and have to go 
vote somewhere, and rather than keep you, we probably will 
adjourn the Committee meeting, but we do appreciate the good 
testimony and we are happy to work with you and see what can be 
worked out on this. So thank you very much, and the Committee 
stands adjourned.
    [Whereupon, at 12:07 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
